<html>
<title> - UKRAINE'S UPCOMING ELECTIONS: A PIVOTAL MOMENT</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                     UKRAINE'S UPCOMING ELECTIONS:


                            A PIVOTAL MOMENT

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-7]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

                             


                   Available via http://www.csce.gov
                   
                   
                   
                   
                   
                                  ____________
                   
 
                      U.S. GOVERNMENT PUBLISHING OFFICE
 94-842 PDF                    WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001               
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

              
               HOUSE                          SENATE
                                                  

CHRISTOPHER H. SMITH, New Jersey,   BENJAMIN L. CARDIN, Maryland, 
Chairman                             Co-Chairman
JOSEPH R. PITTS, Pennsylvania       SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama         TOM UDALL, New Mexico
PHIL GINGREY, Georgia               JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas           RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida          ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,          SAXBY CHAMBLISS, Georgia
New York                            MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina      KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee

                                   

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  


                     UKRAINE'S UPCOMING ELECTIONS:

                            A PIVOTAL MOMENT

                              ----------                              

                              May 17, 2012
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Michael Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     2
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    10

                               WITNESSES

Yehvenia Tymoshenko, daughter of imprisoned former prime minister 
  Yulia Tymoshenko...............................................     3
Stephen B. Nix, Director, Eurasia Division, International 
  Republican Institute (IRI).....................................     5
David Kramer, President, Freedom House...........................     6
Katie Fox, Deputy Director, Eurasia, National Democratic 
  Institute (NDI)................................................     6
Gavin Weise, Deputy Director, Europe and Asia, International 
  Foundation for Electoral Systems (IFES)........................     7

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    30
Prepared statement of Stephen B. Nix, Director, Eurasia Division, 
  International Republican Institute (IRI).......................    31
Prepared statement of Katie Fox, Deputy Director, Eurasia, 
  National Democratic Institute (NDI)............................    36
Prepared statement of Gavin Weise, Deputy Director, Europe and 
  Asia, International Foundation for Electoral Systems (IFES)....    38

                                 (iii)


                     UKRAINE'S UPCOMING ELECTIONS:



                            A PIVOTAL MOMENT

                              ----------                              


                              May 17, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 1310, Longworth 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Michael 
Burgess, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Steve Cohen, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present: Yehvenia Tymoshenko, daughter of 
imprisoned former prime minister Yulia Tymoshenko; Stephen B. 
Nix, Director, Eurasia Division, International Republican 
Institute (IRI); David Kramer, President, Freedom House; Katie 
Fox, Deputy Director, Eurasia, National Democratic Institute 
(NDI); and Gavin Weise, Deputy Director, Europe and Asia, 
International Foundation for Electoral Systems (IFES).

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    We do have a vote and a series of votes, and then Dr. 
Burgess and I and the other members of the Commission will 
start and go as far as we can before we have to rush to the 
other vote, and then we'll come right back. So I apologize and 
ask you to bear with that delay.
    Welcome to this Helsinki Commission hearing on the October 
28th parliamentary elections in Ukraine. Even though the actual 
voting is still five months away, in the hope of--that matters 
great can still be properly addressed, we believe it is 
important to focus attention now. Ukraine's past four national 
elections, two presidential and two parliamentary, have met 
international democratic standards. They received positive 
assessments from the OSCE-led international observation 
missions and other international observers.
    But given Ukraine's democratic backsliding under Viktor 
Yanukovych, we still have reason to be concerned about the pre-
election climate and watchful for attempts to skew the 
conditions in which the campaigns will be conducted.
    The October 2010 elections, the local elections, and more 
recently the March mayoral elections, were problematic, and 
Ukraine's general backsliding is very troubling. We see it in 
the independence of the judiciary, in corruption, tightening 
controls over the media and harassment of NGOs. All these 
things could also have a debilitating impact on the election 
process.
    Concerns are emerging that in addition to potential overt 
voting day election-rigging, more subtle measures of 
manipulation may already be taking place, such as putting 
pressure on opposition candidates to not run or to switch 
allegiances to the ruling regime's party. Equally 
disconcerting--and I would say disgusting--is the unjust 
imprisonment of political opposition leaders from Prime 
Minister--former Prime Minister Tymoshenko to former Interior 
Minister Yuri Lutsenko, removing their participation in the 
elections and casting a shadow over the entire election 
process.
    Of course everyone remembers that last October, former 
prime minister Tymoshenko was given a seven-year sentence on 
Soviet-era specious charges of abuse of office in a highly 
irregular judicial process, that nobody's buying, specifically 
for signing a 2009 gas contract with Russia, allegedly without 
approval from the cabinet of ministers. Unless she and other 
senior foreign government officials are released from prison 
and restored to their full potential and civil rights, the 
October elections will, by the very fact of their imprisonment, 
be tainted. The imprisonment of leading opposition figures 
alone is so significant and so outrageous that they will make 
it impossible for the international community to assess these 
elections as having met international democratic standards.
    These elections are a litmus test for Ukrainian democracy 
of the degree and kind of democracy it still has. The election 
process, including the pre-election environment--registration, 
campaign voting, counting and tabulation--will tell us a lot 
about Ukraine's future course. Will Ukraine continue sliding 
towards authoritarianism or will it resume its path to 
democracy?
    Another factor here is that, in 2013, Ukraine will assume 
the leadership of the OSCE, which makes it even more important 
that these elections be conducted in line with OSCE standards 
of freedom and fairness. If not, Ukraine's chairmanship itself 
will be under a cloud.
    As a long-time advocate of democracy, human rights and the 
rule of law in Ukraine, I hope that the Yanukovych government 
will not tear Ukraine away from its recent tradition of free 
and fair national elections and will permit a genuinely 
democratic election process, one in which political parties and 
candidates compete on a level playing field, there exists 
equitable media access, and the balloting is conducted in a 
manner that instills confidence. And again, those who have been 
imprisoned absolutely must be released. I'd like to now turn to 
my friend and colleague Dr. Burgess, a fellow Commissioner.

HON. MICHAEL BURGESS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Thank you, Mr. Chairman, I'll forgo an opening statement 
because of the pendency of votes and I am anxious to hear from 
our witnesses. I will just say that I've become increasingly 
concerned, from what I've read in the lay press, about the 
medical condition of former prime minister Tymoshenko and the 
necessity of getting her the medical help that she needs in 
addition to securing her release from what sounds like an 
unjust incarceration.
    So I'll yield back and resume after votes.
    Mr. Smith. Before getting to our panel of witnesses, we do 
have a very important panelist who will be testifying from 
Kyiv. Yevhenia, who's the daughter of the former prime 
minister, has graciously agreed to join us and will speak to 
us. And again, we will have to leave at some point. If she can 
hang on, we will come back and ask some questions. But I would 
like to open up the connection. And I would also ask that any 
of our panelists, when Dr. Burgess and I leave, have a question 
they'd like to pose to her, we'll keep the record going here so 
that you can pose such a question to her. Please proceed, and 
thank you so much for joining us and for the very courageous 
stand and defense of your mother.

   YEHVENIA TYMOSHENKO, DAUGHTER OF IMPRISONED FORMER PRIME 
                   MINISTER YULIA TYMOSHENKO

    [via Skype]: Hello, ladies and gentlemen. I hope that you 
can hear me because I cannot hear what Mr. Chairman was saying. 
Can you hear me?
    Mr. Smith. Yes, we can hear you just fine. Thank you.
    Ms. Tymoshenko OK, thank you so much for the introduction 
and for this opportunity to speak today to you. I just wanted 
to briefly summarize the latest events that happened here in 
Kyiv in regards to my mother and other political prisoners.
    First of all, I wanted to mention that the recent incident 
that I think you all heard of is when my mother was taken by 
force to a hospital and beaten by the prison guards. When I 
found out, it was already four days after the attack happened, 
and the authorities were hoping that her bruises will 
disappear. And they only met the defense team after some 
senator--[inaudible]--that they thought of just to cover up 
this incident. But eventually, we could come in after four 
days, and we saw the results of the beating.
    I heard my mother's statement, and we made straight away 
official appeals to the prison, to the prosecutors about this 
incident. We made official request for the video of this 
instance to be shown and given to us. She also asked the 
medical team--independent medical team from the members of 
Parliament, from all the factions--to come and visit and make 
expertise statement. She also, during the two days, gave the 
account--showed the bruises to the medical team in prison and 
prosecutors that she called especially to record the bruises.
    This all was done, but now defense team also, during the 
investigation that was mounted by the prosecutor's office, 
didn't have any chance to see the medical card where bruises 
were recorded. We were officially replied by the prison 
authorities that this video of this incident doesn't exist.
    Also there were a lot of falsifications with information 
about this attack because, first of all, the head of the prison 
said that he didn't see the bruises. And afterwards, when it 
all became evident and because of Karpachova ombudsman--
actually we--the world could see the bruises, they started 
thinking of more and more ways to falsify this information. And 
that is why it is really surprising for us to hear that Prime 
Minister Azarov in Brussels two days ago stated that he saw 
that video, and he didn't see any violence on this video. So 
either Prime Minister Azarov was lying about this or a video 
does exist. But why didn't authorities show it right after the 
incident to dismiss all kinds of conspiracy behind it and so-
called false accusations? So this hasn't been done. None of the 
diplomats were allowed in, and we're still very sure that the 
authorities are now trying to cover up this fact.
    Of course, more important, more than this, what is worrying 
us now is the legal aspect of the case because so far the last 
court of appeal, which was scheduled for the 15th of May and 
all the people involved could make sure that they looked at the 
case, obviously because of reasons to dismiss it. There's no 
legal grounds to call my mother a criminal or to sentence her. 
And we're very thankful to Danish Helsinki Committee--to claim 
and to make their statement--conclusions after very thorough 
research that this case against my mother is politically 
motivated. So is the next case that was closed by the Supreme 
Court in 2005 by 56 judges and prosecutors general. So now they 
are illegally reopening this old new case.
    We knew General Prosecutor Pshonka claims that 56 judges in 
the Supreme Court and general prosecutor made illegal act by 
closing this case. So why don't we also make attempt to ask the 
people who closed this case and bring them to the witness stand 
and make sure they state why they closed this case? So far 
we're not hoping for any justice in the court because the 
appeal courts and the last court of appeal were held by the 
people who are completely subordinate to the regime, they're 
subordinate to the high council of justice, the majority of 
members of which are subordinate to the president and 
presidential team.
    So far, these two cases--the two appeals that happened in 
the last month, they've been held exactly in the same manner as 
the first court when my mother was sentenced. None of the 
evidence was looked at. No defense strategy [remarked ?] or 
were listened to. And so far, we really have no hope because 
they--even the president who claims that the courts--that the 
trial would let--not under European standards, they didn't make 
any kind of move towards solving the situation, not only just 
about my mother, but about a case for other political prisoners 
now that have been imprisoned without sentence for over a year 
and now have been sentenced with no criminal basis and 
illegally.
    There is also another major aspect in this situation with 
political prisoners is the humanitarian and medical aspects. So 
far, during all this time-- and for some prisoners, it's over a 
year now, more than one year and a half for, say--[inaudible]--
Mr. Lutsenko. They have--[inaudible]----
    Mr. Smith. Excuse me, Yevhenia, if I could be so rude to 
interrupt, we have--Dr. Burgess and I--about 45 seconds to get 
to the floor of the House and vote. We have four votes; it 
should be relatively quick, but the hearing will stand down in 
recess. We will turn this into a briefing for a few moments 
because we do have a very distinguished panel who, I believe, 
would like to ask you a question or two. Then we'll come back 
and resume the hearing, if that would be OK with all? So we 
stand in momentary recess. I would ask again if the panelists--
if they have questions, if they would want to come up here, 
because those mics don't work for some reason, on the hookup, 
and then we'll resume the hearing as soon as----
    MR.: The hearing becomes a briefing and because the 
congressmen don't want to miss any of Ms. Tymoshenko's 
statement, we're going to interrupt that statement for the 
witnesses to the hearing to come up to the dais and we can have 
a question and answer, which should still be very fruitful. Of 
course it will be part of the transcript, on the record. And as 
soon as the members are done voting, I'm sure they'll hurry 
back and we'll resume the testimony and the hearing.
    Who'd like to start with a question?

   STEPHEN B. NIX, DIRECTOR, EURASIA DIVISION, INTERNATIONAL 
                   REPUBLICAN INSTITUTE (IRI)

     This is Stephen Nix asking the question. We understand 
your mother's attorneys have filed an appeal at the European 
Court of Human Rights. And my question was merely, do you have 
any idea when the court--when you might expect to receive a 
ruling, a decision from that court?
    Ms. Tymoshenko. Thank you. We have filed several appeals to 
the European Court of Human Rights. At first it was in general 
about the case--the gas case. And in general then added about 
the other cases that's been filed against my mother, which was 
the latest accusation. The papers and the documents from the 
government were passed just a month ago. And today it was the 
last day for us to provide our plight to the government's 
comment. And so we have done so today. And now we are waiting 
for the European Court of Human Rights to announce the date of 
the first hearing on the general case.
    Also, our defense--[inaudible]--to European Court of Human 
Rights, issue of medical treatment for my mother after the 
incident when she was unconscious for two hours. [Inaudible]--
didn't receive medical treatment. European Court of Human 
Rights made a substantive decision on the 15th of March and to 
demand Ukrainian Government to treat her in a specialized 
clinic by independent doctors. So far, for two months almost, 
this decision was not fulfilled, although it had to be 
fulfilled straight away by the government of Ukraine.
    My mother for--[inaudible]--appealed for--to government of 
Ukraine to provide her with access of the doctor--of the 
professor who she trusts, which is Ukrainian professor. For two 
months she's been rejected to have this right. And now, after 
she's been moved to the hospital, but we're really only hope 
now for the decision of the European Court of Human Rights--
[inaudible]--the general cases and her illegal arrest, the 
impossibility to participate in the political life but also 
other--[inaudible]--breaches of her rights that been going on 
for months now, like, for example, breach of private 
information according to Article 8, et cetera, et cetera.
    Mr. Nix. Thank you. Just a follow-up question then; have 
you had the opportunity to speak with President Grybauskaite of 
Lithuania since her visit to your mother, or have you had the 
opportunity to speak with U.S. ambassador John Tefft after his 
visit?
    Ms. Tymoshenko. I personally didn't have the chance to do 
that because I was always traveling to see my mother in 
hospital. But Dr.--[name inaudible]--member of the team, and 
Mr. Vlasenko, the defense lawyer, had the chance to speak to 
Ambassador Tefft after the meeting. But I know that my mother 
outlined the critical situation that she's in, illegally, 
politically, kept in a medical inhumanitarian way. And she 
outlined that in hospital she's under very strict illegal 
surveillance by video cameras, that her rights for privacy are 
constantly breached.
    And she, just two days ago, refused to go for treatment and 
now she--[inaudible]--after the authorities admitted some of 
these breaches of rights and tried to correct. So we'll see. So 
I didn't manage to meet personally--to speak to ambassador and 
president.

             DAVID KRAMER, PRESIDENT, FREEDOM HOUSE

     Yevhenia, this is David Kramer from Freedom House. I 
wanted to ask you about your view of the reaction of the 
international community. Are you and your mother satisfied with 
how the European Union and the United States have responded to 
this situation?
    Ms. Tymoshenko. Yes. We're very much thankful to the 
support and the--[inaudible]--protest against the repression in 
Ukraine that's been going on since arrests--[inaudible]--but 
specifically after my mother's been violently attacked in 
prison. So far, you know, we just think that if it wasn't for 
this support, I wouldn't know what would happen to my mother, 
whether she would be completely isolated or would have any hope 
at all for her release or for any justice for other political 
prisoners.
    What I wanted to add, if I may, is that my mother today--
[inaudible]--applied and--[inaudible]--to the FATF organization 
to ask them to publicly start investigation into--[inaudible]--
activities of--[inaudible]--in Ukraine. She believes that only 
this way, when this investigation can start and the facts of 
this breach of law by these high officials. I know they've been 
investigated by journalists and on few occasions already, 
certain countries, the prosecution have started investigation 
of this incident. And she also is asking if it's possible that 
after many months of insisting that it's the only way the 
regime will stop its illegal activity is by starting this kind 
of public investigation so that--[inaudible]--to really ask 
that. Also, she's asking and all political prisoners are 
asking--who actually admit officially in some way, if it's 
possible, that they are political prisoners, that they are 
prisoners of consciousness, because the, for example, official 
definitions of this [firm ?] completely corresponds to-- 
[inaudible]--and the reasons why they are political.

   KATIE FOX, DEPUTY DIRECTOR, EURASIA, NATIONAL DEMOCRATIC 
                        INSTITUTE (NDI)

    Hi. I'm Katie Fox. I'm from the National Democratic 
Institute. Now, I would like to ask you what--as Chairman Smith 
mentioned the electoral process--for the parliamentary 
elections has already been tainted by the exclusion of a major 
political figure, your mother. But could you also comment on 
additional problems that you may expect to see, if any, in this 
electoral process and things that the international community 
and particularly Ukrainians should be looking for.
    Ms. Tymoshenko. Thank you. So far, of course, we have--I 
mean, opposition has very strong worries about the elections 
now in October. First worry is of course about falsifications 
and that regime has accumulated so much financial power by 
different schemes--especially connected, for example, to Euro 
2012, but other issues to do with laundering--[inaudible]--
money. They will use this financial resource to do anything 
possible to falsify the elections. Plus, they have very strong 
administrative tools now and power in the regions of Ukraine to 
try to manipulate and put pressure on the people, for example, 
who work in the state organizations like factories and budget 
organizations.
    Also, the pressure and persecution of the candidates from 
the opposition in the regions have already started. For 
example, in Dnipropetrovsk region, a single candidate from the 
opposition was arrested illegally for some accident that 
happened about five years ago when there were no real victims 
and nobody suffered. The person who was in this car accident is 
already working and doesn't have any claims against this 
candidate. But independent from that, he was taken for 
questioning and arrested straight away at this point. So now 
he's representing one of the polls in the Dnipropetrovsk 
region, which is one of the most populated and eastern--it's in 
this region, the country--now is without, you know, one major, 
very popular opposition candidate. This is going on in almost 
every region more or less controlled by pro-presidential 
people. Of course, it's mostly populated eastern region.
    So on my mother's behalf, she also asked me to pass to you 
the request not just--[inaudible]--the coming elections, but 
maybe it would be possible to have inside now and analyze the 
situation already with these breaches of law against this 
opposition.

 GAVIN WEISE, DEPUTY DIRECTOR, EUROPE AND ASIA, INTERNATIONAL 
            FOUNDATION FOR ELECTORAL SYSTEMS (IFES)

     Hi, Eugenia. Gavin Weise from the International Foundation 
for Electoral Systems. As we all know, Ukraine will return to 
an election system that will look very similar to what it had 
in 2002. And--I'm sorry, maybe you're too young to remember 
2002. However, I for one have noticed a number of similarities 
or parallels, of course, to both the political situation in the 
country and the creation of this type of electoral system. And 
I was wondering maybe if--not to put you on the spot--but you 
could talk a little bit about how maybe the creation of those 
districts is influencing or affecting the way that perhaps your 
mother and also the party is thinking at this moment.
    Ms. Tymoshenko. Yeah. Unfortunately, you know, I'm not 
able, of course, to analyze this situation, you know, in full. 
I just know that the main electoral committee have made already 
very few fast changes in determining the electoral districts. 
And they, for example in my region, added the areas which are, 
for example, pro-
opposition. They're very supportive of opposition. They've 
added two more--two more areas which are completely pro-
presidential, that are by the pro-presidential people, in order 
to kind of--to put the electorate there and to make sure they 
control this kind of--so they cannot capture those areas which 
are pro-opposition.
    I don't know--I'm sorry whether that answers your question 
at all. But I also wanted to pass the message that it's always 
been in history of the elections of Ukraine the situation--is 
that it's not that people have voted for the parties or 
candidates, is then how those votes are counted. And this is 
another major part in this scenario and this situation, whether 
the central electoral committee members have already been 
established and they already been basically pinpointed by the 
pro-presidential people--[inaudible]--believe that a majority 
of them are already controlled.
    So independent of the way how people will fight in the 
actual districts with the malfunction and falsifications. And 
the results and bulletins or anything else to the central 
committee, they're going to be miscalculated. So this is 
another major issue.
    Mr. Kramer. It's David, again. Can you update us on the 
status of the investigations and the other charges and 
accusations against your mother, the Shcherban murder case--
where do all these other investigations stand? What's the 
status?
    Ms. Tymoshenko. Thank you very much. Well, the second case 
that's been opened against my mother after the gas case was a 
case of alleged tax evasion and accusations similar to that. We 
call it--our defense lawyers call it a case of moral orders. 
Why we call it that is that because during the time when my 
mother is accused of this action, she was not working in that 
corporation. And the prosecution and investigators accused her 
of giving part of her office to her accountant to claim for 
VAT.
    First of all, claiming for VAT is a normal procedure for 
any businessman in the country. And not receiving VAT is also 
normal procedure--or receiving VAT is also a normal procedure. 
So she is accused of giving this order, which nobody really can 
prove, to the accountant that claimed that VAT. So kind of the 
whole accusation, which obviously nobody, first of all, can 
prove that and there's no evidence for that. But first, the 
main point that she didn't work in that corporation at that 
time.
    The other accusation--it actually hasn't been formally 
given to her--is of kind of considering money officially to the 
account--some of it for the separatist party. This accusation 
hasn't been formally given to her, and she hasn't even 
managed--and she wasn't even given the opportunity to give her 
statement or witnessing statement. So that is why we received 
the statement of--[inaudible]--that would mean that she is 
already a murderer, a complete falsified statement while she's 
not even been a proper witness in the case. So we think that 
this is absurd false accusations have only put forward to shock 
the world and to try and to label her as a criminal and to 
blacken her name without having evidence.
    We're very thankful also to Ambassador Tefft, who stated 
that U.S. authorities don't have any evidence connecting my 
mother to this case. So far, on the 21st of May, on Monday, 
there will be a court hearing in the second case of the alleged 
tax evasion for my mother. This court--[inaudible]--hasn't 
started yet, because she wasn't able to be present in the court 
because she's in hospital. So the actual process hasn't started 
yet, but they just-- [inaudible]--just to basically start--
[inaudible]--to her.
    Mr. Milosch. [Commission staffer] Thank you, Eugenia. At 
this point, we're about five or ten minutes for the members 
returning. We have some people working on the microphones. I 
think we're going to stand down and hope the mics on the dais 
can be plugged into the Skype mic by the time the members 
return.
    Ms. Tymoshenko. Thank you.

    [Break.]

                          *      *      *

    Mr. Smith. The Commission will resume its hearing. I want 
to thank our witnesses for their forbearance, again, and 
their--but also more importantly for asking questions and 
engaging our very distinguished witness.
    Ms. Tymoshenko. Hello.
    Mr. Smith. Now I'll just say parenthetically, former 
Congressman Jim Slattery is here. Congressman Slattery is a 
great friend from years back. We served together when he was a 
House member. People say in the United States bipartisanship is 
dead. Well, not so with Jim.
    Jim was always a very, very capable and effective lawmaker. 
And the only times I think we were really at odds is when our 
kids played against each other in a basketball game under the 
auspices of the CYO here in the United States.
    But to be serious as well on a very serious subject, if you 
could just briefly say whether or not you believe the United 
States, both the executive branch and the Congress, is doing 
enough on behalf of your mother. Any specific things that the 
EU might do and we might do to do--you know, to try to 
accelerate her release? And has the United Nations weighed in 
at all, whether it be the Human Rights Council or any of its 
treaty bodies?
    Ms. Tymoshenko. Thank you, Mr. Chairman. Thank you so much 
for the question. Just wanted to say to the--[inaudible]--that 
so far I have the support of the democratic world, 
international community that--[inaudible]--repressions. And 
now--[inaudible]--so much--[inaudible]--really critical level 
after the regime crossed the line to actually applying physical 
violence against--[inaudible]--against political prisoners. I 
am very thankful because otherwise, without your support and 
without the attention of diplomats here in Ukraine, we won't be 
able to probably access the prisoners or help them or have any 
hope at all. Beyond the message that my mother wanted to pass 
on to you is that she yesterday--[inaudible]--her defense 
lawyers applied and made an appeal to the FATF organization 
to-- [inaudible]--investigate the--[inaudible]--and 
investigate--[inaudible]-- that will prevent--[inaudible]--of 
the high officials in the government. This she believes, and 
she believes--[inaudible]--that's for any--[inaudible]--
apparently--[inaudible]--how these repressions can be stopped 
and the regime punished with sanctions.
    [Inaudible]--is of course very, very thankful for the 
attention of the Congress, Senate hearings, for most of the--
[inaudible]--visits of the senators and congressman in the next 
few months. And--[inaudible]--there can't be another solution 
but emergency--[inaudible]--Ukraine where--[inaudible]--accept 
and make official the status of these prisoners and name the 
political prisoners, because so far the official definition of 
these people behind bars for--[inaudible]--for many years, not 
just--[inaudible]--few years--[inaudible]--since the 2001--you 
know, since my mother--[inaudible] --in 1996, she was always 
the--[inaudible]--methods that we realized that-- [inaudible]--
they are prisoners of conscience.
    There are other political prisoners that also don't receive 
medical treatment there. And--[inaudible]--status, their health 
status is very critical now. So we want to ask to--senator also 
international--[inaudible]--hospital team to see them and to 
see--[inaudible]--because for example, Mr. Lutsenko, the ex-
minister of interior--according to his--[inaudible]--TB and has 
told about this. So now he knows that he has this and must be 
quiet in prison--[inaudible]. That is why I'm very afraid for 
my mother's life now. Hospital where she's-- [inaudible]--very 
professional. They are--[inaudible]--the regime as well as 
prosecutors and judges. They can do something to her--
[inaudible]. So we're just asking you please to keep the 
pressure on and to just--we don't know many--[inaudible]--
that--just please don't leave us alone, because we pray 
there's--[inaudible]--people. We're not strong enough to fight 
against this injustice.
    Mr. Smith. Well, in the followup to this hearing, we will 
be updating text and introducing a resolution here on the House 
side. We're looking at the probability of a delegation--I would 
like to put together a delegation to go and visit Kyiv. And so 
we want to let you know that--you know, we're just going to 
increase rather than--our efforts. And finally, are you at any 
risk yourself?
    Ms. Tymoshenko. At the moment I don't--[inaudible]--
directed pressure or threat on me per se, no.
    Mr. Smith. OK. Well, you're in our thoughts and prayers. I 
want you to know that. Commissioner Cohen is here, a member of 
our Helsinki Commission.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    I'm a Democrat as well; I felt like chopped liver a few 
minutes ago when he was extolling the virtues of Mr. Slattery. 
But we work together in a bipartisan fashion as well.
    Mr. Smith. Of course.
    Mr. Cohen. And we had a hearing this week on the problems 
in Uzbekistan and others--this--nations in Central Asia in 
imprisoning people of conscience, political journalists and 
religious people. And we're preparing a letter to our 
colleagues as we speak on this subject and encouraging the 
State Department to use whatever pressures and sanctions they 
can. And the same thing goes with Ukraine, and possibly we'll 
do a separate letter or work together on that. But I just--I 
look forward to coming to Kyiv and visiting. I see your panda 
bear in the back there; we have a panda in the Memphis Zoo, and 
I like your panda. That's good. [Laughter.]
    Ms. Tymoshenko. Yeah--[chuckles.]
    Mr. Smith. So we will see you soon. You know, we hope to 
have other members going. And I think it'll be a worthwhile 
trip. And I would just add, we will also be writing Ban Ki-moon 
and--to see if the U.N. system sleeps through this one and 
allows a former prime minister and other high-ranking officials 
to be unjustly incarcerated, it does call into question the 
very viability and the 
raison-d'etre, if you will, of the United Nations itself. My 
hope is that they will weigh in very robustly, but we will 
contact them. Again, this hearing is for us to recalibrate and 
to accelerate our efforts on the Commission. So thank you so 
much, and God bless you.
    Ms. Tymoshenko. So much--thank you so much--[inaudible].
    Mr. Smith. Bye. [Pause.]
    We will resume our--we already did resume our hearing. 
[Chuckles.] Let me just--David Kramer, I understand does have 
to leave. And I apologize again to all of you for being so late 
with those votes. If it would be all right, we will go right to 
Mr. Kramer, and then go to Stephen Nix, Katie Fox and Gavin 
Weise. And I'll do a little more introduction momentarily. 
Please.
    Mr. Kramer. Great. Mr. Chairman, thanks very much. My 
apologies for having to leave fairly soon; my apologies to my 
colleagues on this panel. It's a great privilege to be with 
them and also to appear before the Commission again. I'm a late 
addition to the witness list, and so I also apologize for not 
having a written statement.
    But let me offer a few thoughts based on a recent trip to 
Ukraine that Freedom House conducted at the beginning of April 
as part of our second assessment of the state of democracy and 
human rights in Ukraine, a follow-on to the report we issued 
last year, which was called ``Sounding the Alarm,'' which I 
have to say I think has turned out to be rather prescient given 
the trends that we've seen in the past year.
    We met with a number of officials, including President 
Yanukovych, on this last visit. We also had the opportunity to 
visit two of the political prisoners, including Yulia 
Tymoshenko and Yuri Lutsenko, the former minister of interior, 
who is in prison in Kyiv. And this was an issue that was 
prevalent throughout our discussions with high-level officials 
in Ukraine.
    But it's not the only issue that I think we need to focus 
on. And I know my colleagues here are going to talk about the 
election coming up in October for the parliament, for the Rada, 
which is going to be a critical test of whether Ukraine can 
continue to conduct national elections in a fashion that meets 
the criteria that the OSCE's ODIHR arm has--and I'll let my 
colleagues address that.
    The two other issues involve the incarceration and 
persecution and prosecution of political opposition figures. 
And it is important to keep in mind not only the powerful 
representation of Yevheniya Tymoshenko of her mother's case, 
but that there are other people in jail from the opposition who 
many suspect are in jail because they were part of the 
opposition.
    And this has been a major concern for many observers. And I 
think we have seen the reaction in the international community 
among officials from the European Union, as well as the United 
States, to this continued situation: the latest developments 
with Yulia Tymoshenko; the visit by the human rights 
ombudswoman in Ukraine to her prison and the release of photos 
from that visit, which I think fed the concern than many people 
have had about the situation.
    I commend--after significant, extensive efforts--Ambassador 
John Tefft and Tom Melia, the deputy assistant secretary in the 
DRL Bureau at State, for being able to visit her on--earlier 
this week, I believe it was. They issued a statement from the 
embassy expressing their concern about her continued 
incarceration and also expressing the hope of the release not 
only of Tymoshenko but also of the other members of the 
previous government and restoration of their full civil and 
political rights, which I think is a critical point.
    There have been positive developments in Ukraine. And it is 
not an entirely black-and-white picture. There is NGO 
legislation that actually has been deemed rather good. There 
has been access to information; open government efforts; the 
development with the European Union last December where 
Yanukovych initialed this agreement, though has not yet been 
able to sign it because of the concerns about the trends in 
Ukraine; the efforts with the United States on highly enriched 
uranium, which--I do have some concern that that has become too 
much of a focus of U.S. government officials and distracting 
from some of the trends, at least earlier; but also, I would 
even argue, standing up somewhat to pressure from Moscow, where 
once again we see Russian officials overplaying their hand and 
not helping their cause and even alienating parts of Ukraine 
that in the past have been more sympathetic toward Russia.
    But the three main issues coming up, or that have been in 
play: the prosecution and persecution of opposition figures and 
their incarceration; the elections, which my colleagues will 
talk about; but then also the issue of corruption. And a term 
that I heard that came up during my visit in April was 
``family-ization,'' that this is actually becoming rather 
personal; and the corruption allegations extending to even 
parts of the first family, where you have one of the sons whose 
wealth has soared 18 times just in the past year alone, 
according to reports; and questions about how this wealth has 
been accumulated.
    Corruption is a problem throughout the region, but it's a 
particular concern in Ukraine. The energy sector is rife with 
corruption. And the return of RosUkrEnergo, the energy 
middleman company, I think is not a welcome sign in this 
situation.
    The summit that was supposed to be held with a number of 
East Central European and other officials--European officials, 
I should say--that was to have taken place last week was 
canceled because a number of heads of state decided they were 
not going to visit Ukraine in light of the current situation. I 
think you're also seeing a situation where Ukraine is hosting 
the Euro 2012 soccer championships, along with Poland, starting 
in--June 8th, I think it is. And a number of officials, 
including EU officials, have indicated they have no plans to 
visit Ukraine because of what's happening on the political 
scene.
    Ukraine is going to be the chair--as you know, Mr. 
Chairman--of the OSCE next year. And many concerns that 
Ukraine's chairmanship is going to make the Kazakh chairmanship 
of several years ago look pretty good. I certainly hope that 
won't be the case, because that will do significant damage to 
the organization as well as Ukraine's standing.
    There are a number of events where Ukraine should be 
proud--of hosting the Euro 2012, of being chair of the OSCE. 
These should be reflections of a Ukraine that is moving in the 
right direction. But instead, as we warned when we were in 
Ukraine in April, these events are likely going to be instead 
not the focus of attention, as you have many journalists and 
others arriving in the country questioning why Ukraine is 
hosting such events or chairing the organization. And I think 
all too predictably, the continued situation with the 
Tymoshenko case, the other cases, the problems of corruption, 
and concerns even about the elections--where there was a 
mayoral election in the city of Obukhiv before we arrived that 
was widely ridiculed and criticized--concerns about how the 
elections themselves will shape up.
    The last thing I would say, Mr. Chairman--and I'll stop 
here--is it is critically important that we continue to engage. 
But, at the same time, there is a growing level of frustration 
with the officials in Ukraine, where, I think, for the first 
time, in the past few months, we've heard the words ``Ukraine'' 
and ``sanctions'' mentioned in the same sentence, which is 
terribly unfortunate.
    Ukraine, after all, I would argue, despite the recent 
comments of one official, is not Belarus. It's not Russia. But 
if the current leadership in Ukraine is not careful, that's how 
it's going to be viewed in the West. And it would be a mistake 
on the part of Ukrainian officials to assume that Ukraine is so 
central and important to European officials that Europe will do 
whatever it can in order to try to lure Ukraine into the West.
    Europe has so many problems on its hands right now that I'm 
not sure it really wants to take on what is a growing headache 
for Ukraine. And so Ukraine and the leadership in Ukraine and 
civil society, which I did detect is more active now than a 
year ago--I think they too are frustrated--it's really 
important that Ukraine get back on the right track. And I 
certainly hope they will do so. Thank you very much.
    Mr. Smith. Thank you very much, Mr. Kramer. And I just--I'm 
glad you noted the good work that Ambassador John Tefft is 
doing, both in Ukraine and before that. I actually visited with 
him when he was in Tbilisi right as the Russians rolled in to 
South Ossetia and Abkhazia. And he's very wise and very, very 
effective--so it's good that he's on the scene for all--for all 
of the concerns that we all have.
    I'd like to now--and, again, your full resumes will be made 
a part of the record--but I would like to ask first Stephen 
Nix, who's regional director for Eurasia, International 
Republican Institute, the IRI. Then we'll go to Katie Fox, 
deputy director of national--for Eurasia, National Democratic 
Institute. And then we'll go to Gavin Weise, deputy director, 
Europe and Asia, International Foundation for Electoral 
Systems.
    Very knowledgeable and heavily credentialed witnesses--all 
four of you. Thank you for sharing your insights and wisdom and 
thank you for posing questions earlier, which answered a lot of 
questions that this panel would have asked, and you did it much 
better. I'd like to now ask Mr. Nix if you'd go.
    Mr. Nix. First of all, thank you, Mr. Chairman. Thank you 
for convening this hearing today. Thank you for a focus on this 
part of the world. We're all cognizant of the fact that much 
attention and focus is now being placed on the Middle East and 
North Africa. However, Eurasia remains strategically important 
to the United States and events in that part of the world, 
particularly in the field of democracy are critical to the U.S. 
interests abroad.
    So, thank you again, Mr. Chairman, for convening this. I 
would ask that my remarks be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Nix. Mr. Chairman, we meet here today at a critical 
time in Ukraine's democratic development. For the past two 
years, we've watched what can only be described as democratic 
backsliding in Ukraine. The international community has 
witnessed the continued selective prosecution, as you saw 
earlier today and heard from your first witness--the selective 
prosecution of the political opposition in Ukraine. The almost 
daily announcement of European leaders that they will not 
attend the soccer championships that Ukraine is hosting; the 
continued discussion of visa bans and freezing of assets that 
are taking place in both Brussels and in Washington.
    None of this would have been imaginable two years ago. 
However, the reality is that Ukraine has changed significantly. 
It's instructive to understand how the country arrived where it 
is today and to analyze the context of how that might affect 
the upcoming parliamentary election.
    The October 2012 parliamentary elections will be the first 
parliamentary elections in Ukraine since 2007. As you noted 
yourself, Mr. Chairman, several elections have taken place in 
Ukraine that have been deemed to be free and fair and meeting 
international standards.
    In February 2010, in an election that was administered by 
the previous administration, Victor Yanukovych was elected 
president, and these elections were deemed to have met, by and 
large, international standards.
    However, since his election, the Yanukovych administration 
has engaged in the practice of selective justice, targeting 
opposition political figures. The only elections conducted thus 
far under the current administration are the 2010 local 
elections. Unfortunately these were recognized by both U.S. and 
international observation missions as falling short of 
democratic standards. Massive government resources were used to 
consolidate power, while political parties not aligned with the 
governing party were not able to fully and fairly participate 
in those elections.
    As a result of this consolidation of power, there is 
growing public discontent with the authorities. In public 
opinion polls conducted by IRI, respondents were asked if they 
would support the freezing of assets and banning of visas of 
Ukrainian officials, including judges that engaged in 
corruption. Eighty-two percent responded in the affirmative, 
that they would support such moves.
    These are dramatic figures, Mr. Chairman. We see this 
nowhere else in the region, and I think it speaks to the level 
of discontent that is emerging in Ukraine.
    In November, Ukraine's parliament adopted a law on 
parliamentary elections. The new law establishes a mixed 
system, which is a return to the system last used in 2002 and 
establishes a 5 percent threshold for any political party to be 
represented in parliament and does not allow electoral blocs to 
compete in the election.
    The Venice Commission strongly criticized this draft 
parliamentary election law. Unfortunately the commission's 
analysis was mostly ignored. Its report was critical of the 
change to the mixed system. It advocated an open party list 
system. It also expressed concern about unclear criteria and 
deadlines for the designation of election districts, a lack of 
clarity on appealing results of elections, and an absence of 
full disclosure on sources and sums of election campaign 
funding.
    Now with regard to the upcoming elections, I just wanted to 
give you and the members a bit of a preview on how things are 
shaping up. According to IRI polling data, it appears that six 
political parties will likely pass the 5 percent threshold. 
Those are the Party of Regions, Batkivshchyna or Fatherland 
Party, Front of Change, the Ukrainian Democratic Alliance for 
Reform, the Communist Party and the Freedom Party.
    Many parties are starting to coalesce. The Strong Ukraine 
political party has merged with the Party of Regions, and the 
opposition is also seeking to coalesce. Batkivshchyna and Front 
for Change have united in a single list of candidates for the 
single mandate districts and are currently in discussions with 
the Udar political party. However, leading up to these 
elections, government officials have intensified their pressure 
on multiple sectors of Ukrainian society, and I'd like to speak 
about three of those: media, civil society organizations, and 
the political opposition.
    With regard to the media, Mr. Chairman, one of the 
preeminent legacies of the Orange Revolution was a free and 
vibrant media. Soon after assuming power in 2010, the current 
government directly and indirectly pressured the media to limit 
critical coverage and report more positively on the government. 
In addition, one of the country's deputy prime ministers is the 
owner of the largest media conglomerate in Ukraine, known as 
Inter. The government has tried to censor TV state companies.
    In civil society, the Ukrainian Government began to more 
closely monitor and regulate activities of NGOs, including 
those of IRI. A cabinet of ministers' decree signed in January 
of 2011 amends the registration regulations in Ukraine, making 
it easier to deregister international civil society 
organizations and placing much higher reporting requirements on 
these--their grantees.
    With regard to the opposition, you've already heard from 
several today about the marginalization and the political 
persecution of political figures. I won't go into that any 
further. I would like to share with you some of the things that 
IRI is doing to try to strengthen democracy in Ukraine.
    IRI has had a long-standing program in Ukraine. We support 
the promotion of democracy in Ukraine, and we try to address 
the above-referenced challenges and respond to Ukraine's 
rapidly deteriorating political environment and by working to 
strengthen political parties, foster mechanisms for good 
governance, support the next generation of political activists, 
and develop a more transparent electoral system. To assist in 
the development of Ukraine's electoral processes, IRI has 
conducted international election observation missions, 
observing every parliamentary and presidential election in 
Ukraine since it became independent in 1991.
    As far as next steps, Mr. Chairman, let me summarize by 
saying I'd like to reiterate the importance of the upcoming 
elections. Elections are critical for Ukraine's continued 
integration into Euro-
Atlantic structures. Failure to conduct elections which meet 
international standards will cause Ukraine to be further 
isolated from the West.
    We encourage the U.S. Congress to continue to make it clear 
to the Ukrainian Government that free and fair elections will 
determine the course of the future relationship between our two 
countries. In anticipation of the possibility of excessive 
fraud in the parliamentary elections, we call on Ukrainian 
authorities to support international election observation 
missions and to allow district and regional election 
commissioners to conduct their work independent of pressure, 
intimidation from central authorities.
    In summary, Mr. Chairman, I'd like to thank you and the 
members for focusing on the parliamentary elections. The way in 
which elections are conducted in Ukraine are every bit as 
important as the outcome. So, I thank you again, and I'll be 
prepared to answer any questions you might have.
    Mr. Smith. Mr. Nix, thank you so very much for your 
testimony. Ms. Fox.
    Ms. Fox. Thank you, Mr. Chairman and distinguished members 
of the Commission. I want to apologize for my voice. I'm 
getting over a cold, but I'm not contagious, but--thank you for 
this opportunity to comment on next October's Ukrainian 
parliamentary elections. I want to note that this is a 
particularly important time to be holding this hearing. 
Although the election is still several months off, there are 
important decisions being made right now.
    Ukraine's constitutional court recently invalidated parts 
of the parliamentary election law. The very important 
territorial and precinct election commissions will soon be 
chosen. Opora, which is the major domestic nonpartisan election 
monitoring group, is beginning to issue reports, and the 
political parties, with which NDI and IRI work, are making 
their plans for protecting electoral integrity. Moreover, of 
course, as you know, it is established international practice 
to evaluate all parts of the election cycle, not only election 
day, but the broader electoral context that affects the 
character and quality of elections.
    In fact, both the Ukrainian Government and its critics 
agree that this election should be viewed in a broader 
political context. The Ukrainian Government asserts that it is 
preparing to hold a fully democratic election, one that will 
demonstrate its ability to balance strong, centralized 
governance with democratic values sufficient to justify 
European Union membership for Ukraine.
    Unfortunately, this notion of balance remains wishful 
thinking despite the efforts of some well-intentioned people in 
the current government. In the electoral arena, as my colleague 
Steve Nix has noted, there was a promising start when a 
democratic election was held in 2010 and President Yanukovych 
came to power. Since then, as my colleague has also noted, the 
only nationwide elections under the current administration, the 
local elections in fall 2010, were flawed in the view of 
credible domestic and international observers. That tainted 
performance undermined confidence among the opposition that 
this government would uphold international and domestic 
standards for fair elections. Very long and unfortunately 
opaque deliberations over a new parliamentary election law 
fueled further mistrust in the electoral process. And as has 
been noted in a recent troubling development, international 
observers were not allowed to monitor critical aspects of the 
election vote count in March in a local election in the Kyiv 
suburb of Obukhiv.
    As several people have already commented, the last two 
years have seen a general deterioration of political pluralism 
in Ukraine. The ruling party has taken control over most of the 
institutions of government. In addition to the parliamentary 
election law, the last two years have seen of course the 
jailing of the most popular opposition politician, Ms. 
Tymoshenko; constitutional changes to strengthen the presidency 
relative to parliament; and greatly expanded control by the 
ruling Party of Regions over local governments as well as law 
enforcement and regulatory bodies. Ukraine's courts, including 
the constitutional courts, have rebuffed challenges to all of 
these changes. And in David's organization, Freedom House, 
which puts out the very influential Freedom in the World Index, 
Ukraine dropped from free to partly free under the current 
government.
    At the same time, Ukraine still benefits from strong 
democratic voices and alternative points of view. For example, 
in the election law debate the opposition parties were able to 
marshal media and public attention, and they were able to 
negotiate significant changes into the law. This presence of a 
viable opposition sets Ukraine apart from most of its ex-Soviet 
neighbors. And it is this multiparty system that may be 
undermined if the October elections are seriously flawed.
    The international community can and should use both words 
and deeds to guard against the further erosion of democratic 
rights in Ukraine. But the primary driver of change, however, 
must be the Ukrainians themselves. There should be no mistaking 
Ukrainians' desires. A common refrain you hear among certain 
commentators is that Ukrainians are either apathetic about 
their political life or ready to sacrifice democratic 
institutions and principles for a, quote, ``strong hand'' in 
governance.
    Neither is true and they both do disservice to Ukrainians' 
aspirations. While it is true that citizens express 
disappointment with their political leaders, they do care about 
the direction of the country, which is evidenced by the growing 
numbers who are participating in peaceful protests. Recent 
increases in demonstrations and the so-called protest mood have 
been documented by pollsters and by civil society, including an 
NDI partner, the society--Center for Society Research, excuse 
me.
    The all too common wisdom that Ukrainians will sacrifice 
democracy for progress on bread and butter issues is also 
false. Ukrainian civic groups have successfully married the two 
concerns in an advocacy campaign on the freedom of assembly. 
Thousands of Ukrainians have signed petitions that call upon 
the government to allow freedom of assembly as a means of 
protecting their economic rights. Polling supported by NDI 
along with Lake Research Associates prior to this petition 
campaign showed that Ukrainians are well aware of threats to 
democracy and to individual civil liberties, notably political 
influence over the judiciary--a topic we discussed today.
    As the election approaches, Ukrainian civil society will 
become more active, particularly in monitoring and reporting on 
threats to electoral integrity. Five key issues are most 
important to restoring some measure of credibility to Ukraine's 
electoral process. I will list them here: one, government 
impartiality in the administration of the elections. This means 
no misuse of governmental resources and authority in support of 
a candidate or party, including abuse of the taxing or 
licensing and regulatories of government, or governmental 
pressure on courts involved in such things as candidate 
registration.
    Two, a campaign environment in which candidates, campaign 
activists and observers can operate free of harassment and 
intimidation. Three, transparent and equitable formation of 
territorial and precinct election commissions. Four, respect 
for, and adherence to the legal framework for the election, and 
for the compromise that was negotiated between government and 
opposition when the law was ultimately passed. Finally, five, a 
post-election environment free from pressure or incentives to 
induce deputies to switch allegiances.
    It's important to note that this, in particular, was a 
major problem following the 2002 parliamentary elections, the 
last time Ukraine used a single mandate system as they are for 
half the seats this time. The opposition party in that election 
won the greatest number of seats, but because of post-election 
defections, the pro-governmental bloc eventually was able to 
form a parliamentary majority.
    Observers from Opora have been monitoring in every oblast 
since early April. In July, Opora will deploy additional 
observers to the 225 electoral districts. And on Election Day, 
it will field up to 3,500 observers. With NDI's technical 
support, Opora will be able to draw accurate conclusions about 
the fairness of the election nationwide, based on observation 
in a statistically representative sample of polling places.
    Opora will be reporting on electoral processes and 
incidents, not just in monthly press conferences but also as 
they are happening in real time. It will employ sophisticated 
data visualization techniques to display maps of electoral 
violations online. It will circulate reports using email and 
social networks. All of these efforts will enable Ukrainian 
citizens and international groups to react immediately to 
electoral problems and events.
    Opora will also work with other groups to post verified 
reports from ordinary citizens, using what's called 
crowdsourcing techniques that were so important in recent 
Russian elections. Of course, in all these efforts, the 
organization, Opora, will also cooperate with the OSCE and 
other nonpartisan domestic and international election 
monitoring groups.
    In addition to Opora, NDI hopes to support a monitoring 
effort by the European Network of Election Monitoring 
Organizations. This is a network of the leading nonpartisan 
monitoring groups from the former Soviet Union and Central 
Europe. Its members, who have observed a number of previous 
Ukrainian elections, are well-versed in Ukraine's electoral 
processes.
    Opora, ENEMO and other monitors can give Ukrainians crucial 
information that they need so that they are able to demand from 
their government clean elections as part of a genuine, long-
term commitment to democracy. We hope that all of those here 
who care about Ukraine help to amplify the findings of these 
credible Ukrainian--excuse me--credible monitoring groups.
    Thank you, again, Mr. Chairman, members of the Commission, 
for holding this hearing and for the opportunity to speak. And 
I have--there's a schedule of Opora's reports on the table out 
there if people want to follow.
    Mr. Smith. Ms. Fox, thank you very much for struggling 
through with your difficult cold and voice, and thank you for 
doing it. One quick question before Mr. Kramer--and all of you 
I would ask the same thing, but after of course the next 
witness.
    You mentioned the leaders have no plans--or some of the 
leaders have no plans to go to Euro 2012. What about teams? Is 
that something that should be promoted, that teams ought to 
boycott this?
    Mr. Kramer. It's a great question. I am inclined to keep 
the teams out of this; have this decided at the political 
level. I think the teams are looking forward to participating 
in these games. And I think enough of a political statement 
will be made by political leaders and heads of state deciding 
not to go.
    Mr. Smith. Thank you.
    Mr. Kramer. And my apologies, Mr. Chairman, I appreciate--
    Mr. Smith. Thank you so much.
    Mr. Kramer. Thanks.
    Mr. Smith. And have a nice trip. Mr. Weise. And thank you 
for your patience.
    Mr. Weise. Thank you, Mr. Chairman. Good afternoon, ladies 
and gentlemen, members and staff of the Commission. I'd like to 
ask that my full written statement as well as some other 
materials which I will refer to in this presentation be 
included in the record.
    Mr. Smith. Without objection it will be so ordered.
    Mr. Weise. Thank you. IFES is an independent, non-profit 
leader in election assistance and democracy promotion. In 
Ukraine, we have provided support to nascent electoral 
institutions, offered legislative assistance to fundamental 
laws and worked with a range of civil society groups and 
experts to improve the quality and transparency of elections in 
the country.
    I would like to begin today by first sincerely thanking the 
Commission for inviting IFES to speak--and, in fact, all of us 
to speak--but more so for simply holding this event. Over the 
past few years, the organizations represented here today have 
followed closely events in Ukraine with an eye towards this 
October's parliamentary election.
    As we have now already heard, problems arising in the 2010 
local elections, some recent developments in election law for 
this election, the subsequent deterioration of rights and 
freedoms, the much-publicized and seemingly selective political 
persecution of former government and current opposition figures 
have all collectively fueled our growing concern over how free, 
fair and credible these elections may be.
    I will focus my remarks on the legal framework and 
administration of elections. In doing so I touch upon a number 
of new or persisting weaknesses in the electoral legislation, I 
draw your attention to recent developments in preparation for 
October's election and I briefly highlight some additional 
issues that may surface in the coming months based on IFES' own 
observations and work in the country.
    On the heels of the 2010 local elections, which we've 
referred to a number of times now, President Yanukovych 
announced his intent to embark on comprehensive electoral 
reform. And there was soon considerable disappointment when it 
was clear that the government made many key decisions, 
including a change to the electoral system, even before the 
working group on election reform held its initial meeting.
    Out of this process that lasted a few to several months, a 
new draft parliamentary election law was eventually put 
forward. IFES, together with the Council of Europe Venice 
Commission and OSCE ODHIR drew attention to both positive and 
negative provisions in the law. The final version of the law 
largely reflected this draft law with some notable exceptions. 
And it is of course this law which now will regulate these 
elections in October.
    In Ukraine's new parliamentary election system, half the 
deputies will be elected through proportional representation 
according to a nationwide vote and half will be elected in 
winner-takes-all electoral constituencies, not unlike our 
elections, for example, for the House of Representatives. 
Inherently, there is nothing right or wrong in such a system.
    However, I would like to draw your attention to the last 
time such a system was in place exactly 10 years ago, as was 
mentioned today--this being the 2002 parliamentary elections. 
These elections were held at a time of a government waning in 
popularity, yet they eventually produced somewhat surprising 
results to the benefit of the pro-government political force to 
the point of it successfully retaining significant control of 
the legislature.
    The pro-government, pro-presidential parties achieve this 
feat largely or partially certainly by doing extraordinarily 
well in these single-member districts, disproportionally so. 
The commonly held assertion amongst experts and academics at 
the time and, indeed, still was that in some cases 
administrative resource use and control of certain territorial 
regions and resources helped ensure a victory for the pro-
governmental candidates where the pro-
governmental party did not enjoy a plurality of voter support.
    Now I bring up this point because today in Ukraine we have 
a similar scenario unfolding. A parallel election system is now 
firmly in place. A number of polls, as you've heard today, and 
including IFES's own from two weeks ago show the support for 
the ruling party in Ukraine is in decline. So in a sense, we 
have the similar mix as we had in 2002--on one hand, a 
governing force that's waning in popular support, which on the 
other is about to complete in an election where half the seats 
will be determined through these single-member districts. Of 
course we can conclude nothing at this time, nor should we, but 
the parallel is striking and must not be dismissed.
    A more technical issue we're just now confronted within the 
last few weeks concerns the boundaries of those new single-
member districts. It is difficult to assess--to assess the 
Central Election Commission's performance in creating 
boundaries only because the law included just three brief 
subarticles to regulate this process. We should also point out 
that between the initial draft of the new law and the final 
version, one of the only provisions in the law to regulate this 
process, that districts must at least be contiguous, was 
inexplicably removed. Not surprisingly, in examining the new 
boundaries, we see that there are districts which are 
noncontiguous. By international standards, there are very few 
reasons for justifiably doing this, and such reasons do not 
appear to apply in these cases.
    IFES, together with civil society partners, is now working 
on a comprehensive technical analysis of the districts, which 
it hopes to release in the coming week. How the districts may 
have been drawn in terms of political intentions will require 
some degree of insight into Ukrainian politics, but certainly 
this will come to light in the days, weeks and months to come.
    An additional area to watch relates to the formation of 
district and polling station election commissions which are 
essentially the chief electoral bodies for their respective 
areas. In Ukraine, all commissioners are nominated by a 
political entity. Because of the number of parties and 
candidates expected to compete for these elections, places on 
these commissions will be at a premium and largely decided by a 
lottery. On April 29th, the CEC adopted a lottery procedure 
that could severely hamper parties' chances of obtaining these 
valuable district commission places and is contrary to an 
earlier IFES recommendation.
    In addition, the timeframe for a political entity to submit 
candidates for the commission is extremely tight--just three 
days, with any nomination returned for correction needing to be 
resubmitted the following day. We are concerned that political 
entities may forfeit their commission nominees simply because 
they will not learn until later that there was an issue with 
their initial submission.
    In terms of electoral administration, let me begin by 
saying the CEC of Ukraine has an unenviable task in preparing 
up to half a million temporary election commissioners in a 
matter of just a few weeks. The CEC also be burdened with many 
other tasks in the upcoming months; for example, registering 
candidates on party lists and accrediting thousands of local 
and international nonpartisan observers and thousands more 
candidates and party proxies and observers.
    Beyond these logistical challenges, we recall, in Ukraine 
election commissions are de facto not independent from 
political influence, as they are formed by the entities and 
whose interests they de facto represent on the commission. Such 
a concern has been raised by international organizations such 
as the OSCE ODHIR.
    Finally, I would point to a few additional issues to be 
cognizant of in the upcoming campaign and election. First is 
the possibility that voters will be able to use the option in 
Ukraine of voting in their current temporary place of location 
to strategically change their place of voting, meaning from one 
district to another. This was a potential issue that we raised 
in one of our earlier analyses of the draft law and we simply 
believe that it should be closely monitored.
    Second concerns the commonly recognized phenomenon that all 
major political entities receive considerable financial and 
other resources from Ukraine's wealthiest benefactors. The new 
parliamentary election law does very little to bring 
transparency to these relationships, requiring only the modest 
basic level of disclosure and leaves ample room for campaign 
costs to be hidden as third-party expenditures or services in 
kind.
    Third, Election Day itself may well complicate it by 
unwieldy procedures that need to be clarified by the CEC in 
advance of the election.
    And finally, there exists the ever-present possibilities in 
Ukraine of abuses of state resources, vote-buying schemes and 
other illegal practices that can thrive with impunity under a 
weak system of law enforcement.
    Now let me conclude by stating what the international 
community, including the United States, could do to support 
consolidation of democracy in Ukraine through a transparent, 
competitive and credible election this October.
    First, I would say, don't take your eye off the ball now. 
Over the next few months important developments will take place 
that will surely tell us how transparent, credible and evenly 
contested these elections might be. I urge you all to stay 
focused on the issues raised today by myself and all the 
colleagues, and those that may come to light in the upcoming 
weeks and months.
    To this end, it is of course vital for the U.S. and the 
larger international community to pay close attention to and 
respond to election administration and observation needs and, 
through statements from entities such as your own, to continue 
to show that the U.S. is supportive of a democratic, free and 
fair election in Ukraine.
    Second and finally, I urge you not to take your eye off the 
ball later. Ukraine fatigue in the West has correlated 
positively with the government's recidivism with respect to 
human rights, obvious aggression towards political rivals and 
efforts to solidify a hold on power.
    For our part, IFES has and will continue to advocate for 
improved democratic election legislation and practices in 
compliance with international standards.
    Now despite issues or concerns raised today, I would say 
that we certainly do not know what the outcome of these 
elections will be. But however the conduct and whatever the 
outcomes, it will be necessary to continue to engage Ukraine, 
and of course the performance in these elections will in large 
part determine just how that engagement may take shape.
    Thank you all for the opportunity to testify today, and I 
am happy to answer any questions you may have. Thank you.
    Mr. Smith. Thank you very much, Mr. Weise, for indicating 
what's happening now, but equally important, when you talked 
about and admonished us to keep our eye on the ball, what to 
look out for. And I can assure you this Commission will stay 
very, very focused, but your words, I think, are very 
important. And of all the issues in the world today, we need 
not lose focus, and Kyiv needs to be very well aware of it, at 
least in terms of the U.S. Congress and this Commission. We 
really do understand what's going on, and you have helped us--
the three of you and Mr. Kramer, before he left--to have a much 
better sense of the threats that are occurring there.
    I'll ask really all of my questions, in the interest of 
time, then yield to Mr. Cohen, so whichever ones you would like 
to respond to, I would ask that you do.
    Starting first of all with a more general question, do you 
think that the Ukrainian government is showing any signs of 
responding to the force, the pressure, if you will, really just 
calling on the Yanukovych government to just simply do what it 
ought to do and it has promised to do with regards to those 
they've jailed, including and especially Prime Minister or 
former Prime Minister Tymoshenko? And are they all listening, 
or are they tone deaf with regards to the very real issues 
you've raised about the upcoming election? It seems to me if 
you--if you plan it to--or rig the election, you're going to 
get the outcome you like.
    And secondly, on the intimidation of candidates, by holding 
people who have--or are in jail for trumped-up charges, does 
that have a chilling effect? Or does that have the opposite 
effect, especially with the world watching and encouraging for 
candidates to step forward and assume what could be very real 
risks?
    With regards to the Euro 2012, as I asked Mr. Kramer 
earlier, do you think there's any room for soccer teams 
themselves to boycott, or is it better left to the political 
side of the equation?
    And then with regards to religious leaders, it's my 
understanding that religious leaders from the Catholic, 
Orthodox, Jewish, Protestant, Muslim all met with Yanukovych 
and pushed the human rights issue in general. I'm not sure if 
they brought up the prime minister or the other incarcerated 
leaders. If you have any insights on that, that would be 
helpful.
    And then the issue of the United Nations and its engagement 
from Ban Ki-moon to the United Nations Human Rights Council to 
any other treaty bodies or any other aspect of it--how engaged 
are they? We know the EU's engaged, the U.S. is engaged. And 
finally, should we be doing more, and should the EU be doing 
more?
    Mr. Nix. Thank you, Mr. Chairman. All great questions; I'll 
try to answer them briefly. Let me address your first two 
questions, if I may.
    With regard to whether the government is being responsive 
or at least paying attention to what is being said about the 
elections and the previously noted selective prosecution of 
political figures, I would say this: that what certainly has 
gotten attention is increased discussion about the possibility 
of sanctions, about the possibility of freezing of assets of 
selected individuals, of denying visas to selected individuals. 
That is certainly something that I think has created some 
awareness on the Ukrainian side. In addition to that, raising 
questions about Ukraine's role as possible chair of the OSCE I 
think has certainly gained the attention of authorities in 
Kyiv. So those are two very central issues, and I think that 
the government is certainly taking note of those types of 
issues.
    With regard to your second question, which was the net 
effect of the prosecution of political figures, similar to our 
polling that we conduct in Ukraine, many of the polls that I've 
looked at indicate that the incarceration of the opposition has 
only increased their political ratings. That seems--that seems 
to be the trend, in any case. Whether that will continue, we 
don't know. But that has been the case so far. In turn, the 
government's rating has decreased since these cases have been 
brought.
    Ms. Fox. Thank you. I also would like to respond to, I 
think it--the first, second and maybe fifth of these questions. 
[Chuckles.] On whether the Ukrainian government is open to 
pressure or whether they just are completely tone deaf, I want 
to note the reaction that NDI got. We had an international 
assessment mission in these local elections in Obukiv in March.
    And the authorities were very anxious to give us every 
accommodation. They wanted us; they were very open to briefing 
us and making conditions comfortable for us, to listening to 
us, to asking for our views. Even though we did not issue a 
formal report, because it was not an observation mission--we 
didn't see the pre-election period--a number of government 
officials at the Kyiv Oblast level, at the Kyiv City level and 
the Party of Regions were interested informally in asking for 
our views.
    So I do think they have a lot invested in getting a clean 
bill of health from the international community on these 
elections. And I think they are capable of, for better or for 
worse, separating that a little bit--would like to separate 
that from the Tymoshenko issue.
    On what we--what you, Mr. Chairman, members of the 
Commission and the Congress, the U.S. Government--can do 
further, I would say two things. One is to amplify the findings 
of the nonpartisan election-monitoring groups, including the 
Ukrainians themselves. Don't allow them to be painted as being 
irrelevant or biased or something of that nature. Pay attention 
to what these groups are saying, and use the influence that you 
have to amplify them.
    The other is sort of a diplomatic function, I would also 
stress, working with the EU to ensure that they don't suffer 
from what has been called Ukraine fatigue and that they 
continue to hold Ukrainians to the standards that should be 
required for membership in European bodies and for the trade 
agreement, which is very important to Ukrainians.
    I want to make one quick point on the candidate 
intimidation. Steve made a good point about ratings going up. 
But also we have to remember that there's a lot of candidate 
and political activist intimidation going on out in the regions 
where it isn't becoming known and where it's much easier to 
scare people. And that just--it makes it all the more important 
that observers are out there reporting on this. And I want to 
particularly commend Ambassador Tefft in the past for the 
support we've had. And we've been able to bring these cases of 
specifically observer intimidation to his attention. He's been 
very helpful.
    Mr. Smith. Did you want to touch on the U.N. before we go, 
Mr. Weise?
    Mr. Nix. Mr. Chairman, if I can just respond to your fourth 
question with regard to the meeting with religious leaders, I 
would only say that our polling clearly shows--we asked 
respondents to rate institutions. And the church in Ukraine--
whether that's the Orthodox Church, Kyiv patriarch, Moscow 
patriarch, or the Ukrainian Catholic or Roman Catholic faith--
those combined institutions are always received invariably the 
highest rating in polling in terms of institutions. So if the 
administration is going to listen to any particular body in the 
country, it would likely be the united churches.
    Mr. Smith. Have they been public enough? You know, after 
all those years of communism and being voiceless almost, have 
they learned to get their voice in the public square?
    Mr. Nix. Well, that I think is something that's developing, 
but it's certainly a fact that the president met with them, I 
think, is a positive and promising sign.
    Mr. Smith. Mr. Weiss.
    Mr. Weise. Thank you, Mr. Chairman. I'll try to also 
address some of the issues that were not picked up on by my 
colleagues, if I can remember, indeed.
    First, with regards to the effect of some of the messages 
and noise that has been coming at the authorities, I will leave 
the macro-level issues out of my response but look really at 
regards to the election itself. And here I'd like to point out 
just on the election law itself, you know, there was an initial 
draft law put forward by the MOJ, which organizations like IFES 
and Venice Commission reviewed. And indeed, there were a number 
of things that were changed in that legislation that were 
contained in both of our analyses, which we do believe will 
make it a much more--have the--I would say have the potential 
to make it a more free and fair election, and certainly will 
make the election run more smoothly. So I can give an example 
of this by releasing the territorial districts to the 
candidates and the public more than just the very day that the 
election itself starts. You can imagine trying to run in a race 
where you actually don't know what your district is and the 
election starts on that day when you finally learn what it is.
    Also, guidance on the--what we'll do with overseas voters, 
which was lacking from the law. Also the removal of some--in 
the final draft they removed some precincts which could have 
been by law opened up in various locations not related to a 
military or diplomatic post but merely in a shopping mall or 
what have you, another location that they sanctioned. Another--
a couple of other things, like putting free access to 
government funds for TV airtime and perhaps in media, et 
cetera, et cetera. I would also say that the CEC, while they 
did not pick up on all civil society's recommendations to be 
transparent in how they were drawing boundaries by any means, 
they did stick to a couple of provisions such as the 12 percent 
maximum deviation rule between the sizes of the districts and 
also distributed the districts evenly among Ukraine's regions 
in a relatively straightforward and let's say standard manner.
    As far as the political--as far as the effect of the 
persecution of the opposition, I would just agree with my 
colleagues and say that I think that absolutely has been the 
cause for a significant increase in the popularity in the 
polls. And I do not know the extent of some of those former 
opposition leaders, how popular they were before ratcheting of 
persecution happened.
    And with regards to the Euro 2012 boycott, I would agree 
with my colleague David Kramer to, you know, let's keep it 
political, if we can. Let's also remember that Russia is 
competing in those games and also has a pretty good team. And I 
don't know if they would be willing to boycott this event. So 
it would be hard to do it sort of on a widespread basis. And I 
would also say that the history of boycotts has been mixed, I 
think, when we look back at it through history with the 1980 
and 1984 Olympics, I think it was. So in that respect, I would 
say let's--well, hopefully it will stay political. And 
hopefully, there actually will be some political pressure 
because of course--and political boycotts, because we're not 
actually at that point of the games just yet.
    Thank you.
    Mr. Smith. Thank you. Commissioner Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. I think the questions 
are pretty well covered, but I would like to ask this: Have 
other countries brought actions or taken action that the United 
States should emulate?
    Mr. Nix. I think that the United States, through our 
embassy in Kyiv, has joined with our European friends in making 
very strong statements in advance of these elections. They're 
of critical importance. Every time we have a national election 
in Ukraine, we say it is the most critical election ever. And 
every time we say that, it's true. It's just as true this time.
    So I think the statements coming out now are timely, 
because the fact that districts have been drawn and the 
election law has been amended--the official campaign will 
start. And so I think speaking up now is appropriate. To speak 
with one voice across the Atlantic is appropriate. I think 
that's being done. But finally, I think the key is to be 
persistent in holding officials to account, in the hope that 
these elections can be well-administered and meet international 
standards for fairness and transparency. That's the goal. 
That's what we hope Ukraine can achieve. We all want Ukraine to 
achieve this.
    Mr. Cohen. OK. On the election issue, do the other two 
panelists agree that we're working in concert with our European 
allies and should do so and that nobody's taken any steps 
beyond us? Ms. Fox.
    Ms. Fox. Yes, I agree that it's very important to be 
working in concert with European allies and to be persistent 
and to follow up, as Mr. Nix has said. And I also agree with 
him that we have--we've had a very strong voice in this and are 
doing what we should be doing. We just need to keep doing it.
    Mr. Cohen. Mr. Weise, you concur?
    Mr. Weise. Yes, I do. I concur, and I also would like to 
point out that not only--it's not so much maybe that we should 
be emulating some of our European allies, but maybe they should 
be emulating us as well. I think that the U.S. has actually 
done a very good job and should be commended for often leading 
some of the statements and some of the issues that we have 
concentrated on over the past several months. And again, we've 
mentioned Ambassador Tefft, and I think he's done an excellent 
job in Ukraine. And he has really, let's say, pushed, I think, 
the European allies to sort of all be on the same page. And we 
certainly thank him very much for that.
    Mr. Cohen. And those statements are about the elections. 
And are they also consistent with the treatment of the former 
prime minister and the prison conditions of people being 
imprisoned for same?
    Let me ask you this. On the--just to--Mr. Nix, you first. 
We had briefings yesterday on the Uzbekistan and all of those 
other ``stans'' in Central Asia. If you take all the former 
Soviet republics, where does Ukraine rank as far as democratic 
principles and actions of the present government? Above who and 
beneath who?
    Mr. Nix. Well, sure. I'd--comparatively I'd like to say at 
the outset that it's not at the same level as it was, say, 
after the election of 2005. Obviously there has been 
regression. Where does it stand now? I was pointed out earlier 
by Mr. Kramer, it's not Belarus, it's not Russia; but it's 
certainly not Western Europe. It's somewhere in between. And if 
Ukraine wants to realize its European ambitions, if it truly 
wants to be part of the Euro-Atlantic alliance, it has to do 
better than its doing now.
    Mr. Cohen. And Mr. Kramer's--I kind of guess he gives, 
like, a report card. And he's got, you know, fair and not so 
fair and whatever. Are you familiar with this report card?
    Mr. Nix. Oh yes. I refer to regularly. It's very 
comprehensive. It's done regularly. It's relied on by the NGO 
community.
    Mr. Cohen. So with Western Europe and Belarus, it's--and 
Russia--they're in the middle, but how are they with all the 
other former Soviet Union, scratch Western Europe?
    Mr. Nix. Well----
    Mr. Cohen. In that division--if they're----
    Mr. Nix. Sure, in terms of Eastern Europe----
    Mr. Cohen. You know, are they a one seed or an eight seed 
or do they not make the playoffs? [Laughter.]
    Mr. Nix. Well, that's an interesting analogy. But I would 
say this in terms of Eastern Europe, Ukraine is lagging far 
behind the Baltic countries and the other countries--Slovakia 
and Poland. It needs to do better; hopefully it will. That's 
what this is all about. And I think the strong voices of 
Congress in supporting Ukraine in its efforts to democratize 
will have real effect. So they're not where they should be. 
Hopefully they will get there, and sooner the better.
    Mr. Cohen. Are they better than the ``stans''?
    Mr. Nix. Oh, yes, sir. Yes. I would--I could say that I 
think unequivocally. But you know, even in Kyrgyzstan, where 
we've had a--something of a democratic breakthrough, at least 
we have the constitutional makings of a parliamentary 
republic--a parliamentary system of government. But that's 
still very fragile. No one knows how that will pan out. So yes, 
obviously, Ukraine has gained strides. Its location, I think, 
dictates that it acts so. So in sum, absolutely ahead of the 
``stans.''
    Mr. Cohen. Thank you very much. Yield back.
    Mr. Smith. Thank you very much, Commissioner Cohen.
    Just final question, would a congressional or codel of this 
Commission be helpful, say, between now and July?
    Mr. Weise. Well, I think I speak for all of us when I say 
absolutely. And of course, all of our organizations would also 
be happy to assist with information or other background 
materials in advance of such a trip.
    Mr. Smith. We will take you on that. Thank you. We will try 
to put that together as quickly as possible.
    And just one final--on a more humorous note, I'm sure 
Ambassador Tefft showed you his Green Bay--his beloved Green 
Bay Packers helmet. Thank you so much for your insight, your 
counsel, your tremendous work on behalf of human rights. It is 
extraordinary. And the people of Ukraine benefit because of 
you. Thank you so much.
    Hearing's adjourned.
    [Wherepon, at 3:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to this Helsinki Commission hearing on the October 28 
parliamentary elections in Ukraine. Even though the actual voting is 
still five months away, in the hope that matters raised can still be 
properly addressed we believe it is important to focus attention now. 
Ukraine's past four national elections--two presidential and two 
parliamentary--have met international democratic standards. They 
received positive assessments from the OSCE-led international 
observation missions and other international observers.
    But given Ukraine's democratic backsliding under Viktor Yanukovych, 
we have reason to be concerned about the pre-election climate and 
watchful for attempts to skew the conditions in which the campaigns 
will be conducted.
    The October 2010 local elections, and, more recently, the March 
mayoral election in Obukhiv in Kyiv oblast were problematic. And 
Ukraine's general backsliding is very troubling; we see it in the 
independence of the judiciary, in corruption, tightening controls over 
the media and harassment of NGOs--all these things could also have a 
debilitating impact on the election process.
    Concerns are emerging that, in addition to potential overt voting 
day election rigging, more subtle measures of manipulation may already 
be taking place, such as putting pressure on opposition candidates to 
not run or to switch allegiances to the ruling Regions party.
    Especially disconcerting--and disgusting--is the unjust 
imprisonment of political opposition leaders, former Prime Minister 
Yuliya Tymoshenko and former Interior Minister Yuri Lutsenko, removing 
their participation in the elections and casting a shadow over the 
entire election process.
    Unless they and other senior former government officials are 
released from prison and restored to their full political and civil 
rights, the October elections will, by the very fact of their 
imprisonment, be tainted. The imprisonment of leading opposition 
figures alone is so significant, and outrageous, that they will make it 
impossible for the international community to assess these elections as 
having fully met international democratic standards.
    These elections are a litmus test for Ukrainian democracy--of the 
degree and kind of democracy it still has. The elections process, 
including the pre-election environment, registration, campaign, voting, 
counting and tabulation, will tell us a lot about Ukraine's future 
course. Will Ukraine continue sliding towards authoritarianism, or will 
it resume its path to democracy? Another factor here is that in 2013 
Ukraine will assume the leadership of the OSCE--which makes it even 
more important that these elections be conducted in line with OSCE 
standards of freedom and fairness--if not, Ukraine's Chairmanship will 
begin under a cloud.
    As a long-time advocate of democracy, human rights and rule of law 
in Ukraine, I hope that the Yanukovych government will not tear Ukraine 
away from its recent tradition of free and fair national elections and 
will permit a genuinely democratic election process--one in which 
political parties and candidates compete on a level playing field, 
there exists equitable media access, and the balloting is conducted in 
a manner that instills confidence.

   Prepared Statement of Stephen B. Nix, Director, Eurasia Division, 
                   International Republican Institute

    I wish to thank the Members of the Helsinki Commission for 
conducting this public hearing and for inviting me to testify on an 
extremely important part of the world. We are all cognizant of the fact 
that much attention is currently placed on North Africa and sections of 
the Middle East. However, Europe and Eurasia remain of great strategic 
importance for the United States, and developments, particularly in the 
area of democracy, are critical to the United States' interests 
globally.
    Again, thank you for this opportunity and I request that my remarks 
be entered into the record.
    We meet here today at a critical time in Ukraine's democratic 
development. For the past two years, we have watched what can only be 
described as backsliding of democracy in Ukraine. The international 
community has witnessed the continued selective prosecution of the 
political opposition in Ukraine; the report from the Ukrainian Human 
Rights Ombudsman with photographs that show what appear to be bruises 
on the imprisoned former Prime Minister Yulia Tymoshenko following an 
alleged attempt to forcibly transport her to a medical facility for 
treatment against her will; the almost daily announcement of European 
leaders indicating their refusal to attend the European soccer 
championship in Ukraine as a result of its human rights situation; and 
increasing talk in Washington and Brussels of the development of a 
visa-ban list and freezing of international assets which would seek to 
punish those government officials and their families who are the cause 
of the continued backsliding of democracy in Ukraine. None of this 
would have been imaginable a year ago. However the reality in Ukraine 
has changed significantly. Amid all of the political instability in 
Ukraine, it is instructive to understand how the country arrived at 
where it is today and analyze this in the context of how it will affect 
the October 2012 parliamentary elections.
    The October 2012 elections will be the first parliamentary 
elections in Ukraine since 2007. At the time, Ukraine had just 
experienced the Orange Revolution resulting in a grassroots democratic 
breakthrough and a series of free and fair presidential and 
parliamentary elections. In February 2010, Victor Yanukovych was 
elected President in an election which was deemed by most observers to 
have met internationally accepted democratic standards. However, since 
his election, the Yanukovych administration has engaged in the practice 
of selective justice, targeting opposition politicians. On October 1, 
2010, the Constitutional Court, following a Yanukovych-supported change 
in the composition of the court to include judges mostly from his home 
region, ruled that the amendments made to the constitution in 2005 
following the Orange Revolution were invalid. In so doing, powers 
previously vested in the presidency under the previous constitution 
were reinstated, returning Ukraine to a presidential system of 
government. The only elections conducted thus far under the Yanukovych 
presidency, the 2010 local elections, were recognized by the U.S. and 
international organizations as having fallen short of meeting 
democratic standards. Massive government resources were used to 
consolidate power, while parties not aligned with the governing party 
were not able to fully and fairly participate in the elections 
nationwide.
    The Yanukovych government has justified any perceived consolidation 
of power as a means to undertake unprecedented governmental and 
institutional reforms. However, many international organizations have 
not positively assessed these reforms, and Ukraine's democratic 
development. Freedom House, in its 2011 report, downgraded Ukraine from 
being ``free'' to being ``partly free.'' In addition, Freedom House 
published a report at the one-year anniversary of Yanukovych's 
government, in which it stated that ``If left unchecked, the trends set 
by Ukraine's current leadership will move the country toward greater 
centralization and consolidation of power-that is, toward 
authoritarianism.'' \1\ In the report, the authors say Ukraine is 
characterized by:
---------------------------------------------------------------------------
    \1\  Freedom House Special Report; Sounding the Alarm: Protecting 
Democracy in Ukraine 2011, page ii (April 2011) http://
freedomhouse.org/uploads/special_report/98.pdf

        `` . . . consolidation of power, with a narrow ruling group 
        under Yanukovych intent on restoring political order and 
        implementing policy using a more intrusive and visible SBU 
        (Security Services of Ukraine) presence as well as an 
        increasingly malleable judicial system; a ruling group that is 
        equally interested in dividing spoils and protecting its own 
        (though egregious corrupt behavior has also been associated 
        with prior governments); lingering resentment over the failure 
        of the Orange Revolution leaders, in power from 2005 through 
        2009, and the continued fragmentation of the political 
        opposition; the effects of the financial crisis, the 
        International Monetary Fund (IMF) bailout, and ensuing economic 
        reforms; and enervated civil society groups and independent 
        media that are increasingly under pressure from government 
        authorities, including the security services, with particularly 
        difficult conditions in the regions.'' \2\
---------------------------------------------------------------------------
    \2\  Freedom House; Sounding the Alarm: Protecting Democracy in 
Ukraine 2011, page 1 (April 2011) http://www.freedomhouse.org/uploads/
special_report/98.pdf

    Recently, the presidential administration reshuffled key positions 
in the Ministry of Interior with former Minister Anatoliy Mohilev 
appointed Prime Minister of the Autonomous Republic of Crimea. Mohilev 
was replaced with the former head of the State Tax Service of Ukraine, 
Vitaliy Zakharchenko. Zakharchenko is a native of the President 
Yanukovych's home region in Donetsk. In January, President Yanukovych 
signed decrees to remove Fedir Yaroshenko, the Minister of Finance, 
from his post and replace him with the head of the Ukrainian Security 
Services SBU, Valeriy Khoroshkovsky. Khoroshkovsky's position as SBU 
chief was given to Igor Kalinin who is a former Russian citizen and 
formerly in charge of Yanukovych's security detail. Khoroshkovsky has 
since been named a Deputy Prime Minister. The new Minister of Finance, 
Yuri Kolubov, is a known business associate of one of the President's 
sons. The President then named Dmytro Salamatin as Minister of Defense. 
Salamatin formerly was a citizen of the Russian Federation until 2005 
and it is unclear how he obtained his Ukrainian citizenship. Finally, 
the head of the Central Bank of Ukraine is headed by another business 
associate of the President's son, Serhiy Arbuzov, who previously 
managed a small bank in the President's home region of Donetsk. This 
reshuffling suggests a consolidation of power in the Yanukovych 
``family'', as many of these new ministers and officials can trace 
their rise to their connection the President and his sons.
    As a result of the consolidation of power in the hands of a small 
group, closely connected to the President and the continuing democratic 
regression, there is a growing public discontent with the authorities. 
In public opinion surveys conducted by the International Republican 
Institute (IRI), participants were asked, ``Would you support the 
international community freezing the international assets of and 
suspending visas for Ukrainian officials, including judges, engaged in 
corrupt practices?'' In a November IRI public opinion survey, 81 
percent supported this idea while six percent opposed. In March 2012, 
82 percent supported this idea while six percent opposed.
    On November 17, Ukraine's Parliament adopted a Law on Parliamentary 
Elections, which are scheduled for October 2012. The new law 
establishes a mixed system by which half of the deputies will be 
elected under a closed-list proportional system and the other half 
selected through individual mandates in a majoritarian system. The 
mixed electoral system is a return to the system last used in 2002 when 
international observers reported significant fraud. The law also 
establishes a five-percent threshold for any political party to be 
represented through the proportional vote and does not allow electoral 
blocs to compete in the election.
    The Venice Commission strongly criticized the draft of the 
Parliamentary Election Law; however, the commission's analysis was 
mostly ignored. Its report was critical of the change to the mixed 
election system. It had advocated for an open party list system. The 
commission also expressed concern about unclear criteria and deadlines 
for the designation of electoral districts; a lack of clarity on 
appealing results of elections; and an absence of full disclosure on 
sources and sums of election campaign funding.
    According to recent IRI polling, it appears that six political 
parties would pass the five-percent threshold; the Party of Regions 
which is headed by the current Prime Minister Mykola Azarov; the 
Fatherland Party headed by Yulia Tymoshenko (currently serving a seven-
year prison sentence) and run by Oleksandr Turchynov in her absence; 
Front of Change, led by the former Speaker of Parliament, Arseniy 
Yatseniuk; the Ukrainian Democratic Alliance for Reform led by Vitaliy 
Klychko; the Communist Party led by Vasyl Symonenko; and the Freedom 
Party headed by Oley Tyahnybok.
    At the March Regions Political Party Congress, the Strong Ukraine 
political party headed by the third runner up in the 2010 presidential 
election, Serhiy Tigipko was folded into the Party of Regions. The base 
of support for Strong Ukraine had been small and medium businessmen. It 
is believed that the addition of Strong Ukraine will add several 
percentage points to the Party of Regions' rating. The opposition is 
seeking to coalesce before the elections. The Fatherland Party and the 
Front of Change agreed to unite under a unified list. The Fatherland 
Party and the Front of Change are currently in negotiations with the 
Ukrainian Democratic Alliance for Reform to join a unified opposition 
list.
    Leading up to the 2012 elections, government officials have 
intensified their pressure on multiple sectors of Ukrainian society 
such as media, civil society organizations and the opposition.
The Media
    One of the preeminent legacies of the Orange Revolution was a free 
and vibrant media. Very soon after assuming the presidency in 2010, the 
current government directly and indirectly pressured the media to limit 
critical coverage and report more positively on the government. In 
addition, one of the country's Deputy Prime Ministers is the owner of 
the largest media conglomerate in Ukraine, Inter. The government has 
tried to censor state TV companies. For example, recently the State 
Television- and Radio-Company of Ukraine, in a move reminiscent of the 
Soviet propaganda, sent letters to local state TV channels demanding 
that they ``popularize'' the President's social initiatives. According 
to a June 2011 Ukrainian Press Academy news report, 74 percent of the 
seven leading television channels in Ukraine cover government 
authorities, 20 percent cover the opposition, and six per cent other. 
Coverage on the First National Channel was 94 percent on governmental 
officials and four percent on the opposition and other. \3\ A few 
months ago an independent television station in Kharkiv was closed 
under suspicious circumstances. In April, the tax authorities, a body 
increasingly used as a tool of government to exert pressure on the 
media and other parts of society, began to target one of the remaining 
independent channels, the TVi Channel.
---------------------------------------------------------------------------
    \3\  Ukrainian Press Academy June 2011; http://
www.mediaosvita.com.ua/material/2919
---------------------------------------------------------------------------
Civil Society Organizations
    The Ukrainian government has begun to more closely monitor and 
regulate activities of non-governmental organizations, including those 
of IRI. A Cabinet of Ministers decree signed on January 19, 2011 amends 
the registration regulations in Ukraine, making it easier to deregister 
international civil society organizations (CSO) and placing much higher 
reporting requirements on sub-grantees. Officials from SBU, have also 
started to intimidate and exert pressure directly on more independent 
CSOs. Most recently, members of Parliament from the Party of Regions 
have suggested legislation which would ban foreign funding of CSOs. The 
national security doctrine of Ukraine adopted by the National Security 
and Defense Council was updated in March 2011 to declare as a national 
security threat ``any international or domestic organization which 
provides financial or moral support to political parties or non-
governmental organizations whose goal it is to discredit the government 
of Ukraine.'' This statement could be interpreted to apply to any 
number of organizations working in Ukraine. Adding further to the sense 
of encroachment by the government on civic association, the Parliament 
passed and the President signed into law legislation which requires 
every database which contains personal information to be registered 
with the national government. Therefore, all CSOs would have to 
disclose all information which falls under the database category with 
the government.
Marginalization of the Opposition
    The government and its allies apply economic and/or political 
pressure to coerce members of opposition parties to join the government 
on local, regional, and national levels. Ukrainian authorities have 
also targeted those who do not join the government or government-
aligned parties with criminal prosecution. As a result, many of the 
most viable figures in the democratic Ukrainian opposition are 
currently under investigation or imprisoned. In spite of numerous 
European and U.S. government statements of concern about the 
application of selective justice in Ukraine, the Ukrainian government 
continues to prosecute and incarcerate the leading opposition figures.
    As of today, the following opposition figures have been sentenced 
to prison;

    <bullet>  Yulia Tymoshenko--former Prime Minister, head of leading 
opposition party, Fatherland, sentenced to seven years in prison. Her 
health has significantly deteriorated in prison. Prison authorities 
have refused to allow her to travel to Germany to seek treatment from 
independent medical providers as suggested by German officials.
    <bullet>  Yuriy Lutsenko--former Interior Minister, leader of 
People's Self Defense Party sentenced to four years in prison.
    <bullet>  Volodymyr Ivashchenko--former Acting Minister of Defense 
sentenced to five years in prison.
    <bullet>  Grigoriy Filipchuk--former Minister of Environmental 
Protection sentenced to three years in prison.

    In addition, Bohdan Danylyshyn, a former Minister of Economy in 
Tymoshenko's government, received political asylum in the Czech 
Republic in January 2011 after being accused of financial 
mismanagement. Former Kharkiv oblast governor and Fatherland Party 
member Arseny Avakov, who lost disputed mayoral elections in Kharkiv 
city in the flawed 2010 local elections, is in the process of applying 
for asylum in Italy after being charged with similar crimes.
    The U.S. has issued statements highlighting these instances as 
examples of selective prosecution.
    In summary, there is a clear trend of prosecuting political 
opposition leaders and activists.
IRI Work in Ukraine
    Since 1994, IRI has actively supported the promotion of democracy 
in Ukraine. To address the aforementioned challenges and respond to 
Ukraine's rapidly deteriorating political environment, IRI is working 
to strengthen political parties, foster mechanisms for good governance, 
support the next generation of political activists, and develop a more 
transparent electoral system.
    In order to ensure Ukraine has vibrant, democratic parties which 
reflect the needs of citizens, IRI trains parties on how to improve 
their structures and organization, coalesce, and recruit new members. 
Recently, IRI launched an innovative program to enhance communication 
between political parties and local CSOs.
    To encourage Ukraine's elected officials to be responsive to 
citizens, IRI provides training to local elected officials on 
communications, constituent service, management and other skills 
necessary for effective and transparent governance.
    One means to encourage government accountability is IRI's public 
hearing program, which enables Ukrainian civil society, particularly in 
Crimea, to bridge the gap between citizens and elected officials. By 
selecting a local problem and addressing it through the mechanism of a 
public hearing, citizens are able to participate in the decision-making 
process.
    To ensure democracy has a strong and stable future, IRI has been 
supporting four youth-oriented CSOs, which established Youth Political 
Leadership Schools in Ukraine to teach political activism, particularly 
in Eastern Ukraine and Crimea. More than 920 students have graduated 
from these schools and more than 70 percent of whom have entered into 
some form of public service.
    To assist in the development of Ukraine's electoral processes, IRI 
has conducted international election observation missions, observing 
every parliamentary and presidential election since Ukraine became 
independent in 1991. IRI also participated in a joint expert assessment 
team for the October 31, 2010 local elections.
    In addition to observing elections, IRI has been assisting the 
country with electoral reform. In July, prior to the October 31 local 
elections, the Parliament adopted an election law which IRI and many 
other international and domestic organizations criticized for falling 
short of international democratic standards. Consequently, IRI and the 
National Democratic Institute drafted a detailed election law analysis 
in August, which pointed out certain undemocratic aspects of the law 
and the non-transparent manner in which the law was adopted. As a 
result, the President ordered Parliament to revise the election law. 
However, even though the law was slightly amended, international and 
domestic observers labeled the October 31, 2010 election as not meeting 
international standards. In response to widespread international 
criticism, Ukraine's President created a working group tasked with 
developing recommendations for new elections laws. IRI was a member of 
the working group until March, when it suspended its membership, after 
IRI made the determination that it was not being allowed to 
substantively contribute to the process.
Next Steps
    Let me once again reiterate the importance of the upcoming 
parliamentary elections. Elections are critical for Ukraine's continued 
integration into Euro-Atlantic structures. Failure to conduct elections 
which meet international standards will cause Ukraine to be further 
isolated from the West.
    We encourage the United States Congress to continue to make it 
clear to the Ukrainian government that free and fair elections will 
determine the course of the future relationship between our two 
countries. In anticipation of the possibility of excessive fraud in the 
parliamentary elections, we call on the Ukrainian authorities to 
support international election observation missions to Ukraine and to 
allow district and regional election commissioners to conduct their 
work independent of pressure and intimidation from central authorities.
    In summary, I want to convey the extreme importance of the 
parliamentary elections in Ukraine. The way in which elections are 
conducted are every bit as important as the outcome. I thank the 
Chairman and his staff for their focus and attention on Ukraine, and 
thank you again for the opportunity to appear here today.

Stephen Nix joined IRI in October 2000, as Regional Director. In that 
position, he oversees programs in Belarus, Georgia, Kyrgyz Republic, 
Moldavia, Russia and Ukraine. Nix joined IRI after serving for two 
years as Senior Democracy Specialist at the U.S. Agency for 
International Development.

Nix resided in Kyiv, Ukraine, for more than three years. During that 
time, he worked as legal counsel for IFES and served as outside legal 
counsel for the Committee on Legal Reform in the Ukrainian Parliament. 
He also assisted in the drafting of crucial reform legislation in 
Ukraine, including the constitution of Ukraine, the presidential and 
parliamentary election laws, and the law on the constitutional court of 
Ukraine.

  Prepared Statement of Katie Fox, Deputy Regional Director, Eurasia, 
        National Democratic Institute for International Affairs

    Mr. Chairman and Distinguished Members of the Commission:
    Thank you for this opportunity to comment on next October's 
Ukrainian parliamentary elections. NDI applauds the Commission's 
decision to hold this hearing at this juncture. Although election day 
is several months off, important decisions are being made now. 
Ukraine's Constitutional Court recently invalidated portions of the 
parliamentary election law. Territorial and precinct election 
commissions will soon be chosen. Opora, the major domestic nonpartisan 
election monitoring group, is beginning to issue reports, and the 
parties with which NDI and IRI work are drawing up their plans for 
protecting electoral integrity.
    Moreover, it is established international practice to evaluate all 
parts of the election cycle as well as the broader political context 
that affects the character and quality of elections, as called for in 
both the Declaration of Principles for International Election 
Observation and the Declaration of Global Principles for Non-Partisan 
Election Observation and Monitoring by Citizens' Organizations, which 
are supported by the UN Secretariat, OSCE-ODIHR, NDI and other key 
international organizations. The Global Principles, which were launched 
on April 3 in a ceremony at the UN, are also endorsed by 165 citizen 
election monitoring organizations in 65 countries
    In fact, the Ukrainian government and its critics agree that this 
election should be viewed in a broader political context. The 
government asserts that it is preparing to hold a fully democratic 
election, one that will demonstrate its ability to balance strong 
centralized governance with democratic values sufficient to justify 
European Union membership.
    Unfortunately, this notion of balance remains wishful thinking, 
despite the efforts of some well-intentioned people in the current 
government. In the electoral arena, there was a promising start with a 
democratic election in 2010 when President Yanukovych came to power. 
Since then the only nationwide elections under Ukraine's current 
administration, local elections in fall 2010, were flawed in the view 
of credible domestic and international observers, including NDI. That 
tainted performance undermined confidence among the opposition that 
this government would uphold international and domestic standards for 
fair elections. Long and opaque deliberations over a new parliamentary 
election law fueled further mistrust in the electoral process. And, in 
a troubling development, international observers were not allowed to 
monitor critical aspects of the vote count in the March local election 
in the Kyiv suburb of Obukhiv.
    The last two years have also seen a general deterioration of 
political pluralism in Ukraine. The ruling party has gradually taken 
control over most institutions of government. In addition to the new 
parliamentary election law, the last two years have seen the jailing of 
the most popular opposition politician, former Prime Minister Yulia 
Tymoshenko; constitutional changes to strengthen the presidency 
relative to parliament; and greatly expanded control by the Party of 
Regions over local governments as well as law enforcement and 
regulatory authorities. Ukraine's courts, including the Constitutional 
Court, have rebuffed challenges to all of these changes. In Freedom 
House's Freedom in the World index, Ukraine dropped from ``free'' to 
``partly free'' under the current government.
    At the same time, Ukraine still benefits from strong democratic 
voices and alternative points of view. In the election law debate, for 
example, opposition parties marshaled media and public attention, and 
were able to negotiate significant changes to the law. The presence of 
viable opposition sets Ukraine apart from most of its ex-Soviet 
neighbors.
    The international community can use both words and deeds to guard 
against the erosion of democratic rights in Ukraine. The primary driver 
of positive change, however, will be the Ukrainians themselves. And, 
there should be no mistaking Ukrainians' desires. A common refrain 
among certain commentators is that Ukrainians are either apathetic 
about political life or ready to sacrifice democratic institutions and 
principles for a `strong hand' in governance.
    Neither is true, and both do disservice to Ukrainians' aspirations. 
While citizens express disappointment with their political leaders, 
they do care about the direction of their country, as evidenced by the 
growing numbers participating in peaceful protests. Recent increases in 
demonstrations and in the ``protest mood'' have been documented by 
pollsters and by civil society, including an NDI partner, the Center 
for Society Research.
    The all too common wisdom that Ukrainians will sacrifice democracy 
for progress on bread and butter issues is also false. Ukrainian civic 
groups have successfully married the two concerns in an advocacy 
campaign on freedom of assembly. Thousands of Ukrainians have signed 
petitions that call upon the government to allow freedom of assembly as 
a means of protecting their economic rights. Polling supported by NDI 
along with Lake Research Associates prior to the petition campaign 
showed that Ukrainians are well aware of threats to democracy and 
individual civil liberties, notably political influence over the 
judiciary.
    As the election approaches, Ukrainian civil society will become 
more active, particularly in monitoring and reporting on threats to 
electoral integrity.
    Five key issues are most important to restoring some measure of 
credibility to the Ukraine's electoral process.

         1. Government impartiality in the administration of the 
        elections. This means no misuse of governmental resources and 
        authority in support of a candidate or party, including abuse 
        of the taxing or licensing and regulatory powers of government, 
        or governmental pressure on courts involved in such things as 
        candidate registration.
        2. A campaign environment in which candidates, campaign 
        activists and observers can operate free of harassment and 
        intimidation.
        3. Transparent and equitable formation of territorial and 
        precinct election commissions.
        4. Respect for, and adherence to the legal framework for 
        elections, and for the compromise that was negotiated between 
        government and opposition when the law was ultimately passed.
        5. A post-election environment free from pressure or incentives 
        to induce deputies to switch allegiances. This was a major 
        problem following the 2002 parliamentary elections, the last 
        time Ukraine used a single mandate system. The opposition party 
        won the greatest number of seats but because of post-election 
        defections, the pro-governmental bloc eventually formed a 
        parliamentary majority.

    Observers from Opora have been monitoring in every oblast since 
early April. In July, the group will deploy additional observers to the 
225 electoral districts. On election day it will field up to 3,500 
observers. With NDI's technical support, Opora will be able to draw 
accurate conclusions about the fairness of the election nationwide, 
based on its observation in a statistically representative sample of 
polling places.
    Opora will report on electoral processes and incidents not only in 
monthly press conferences, but as they happen. It will employ 
sophisticated data visualization techniques to display maps of 
electoral violations online. It will circulate reports using email and 
social networks as well as traditional methods. These efforts will 
enable Ukrainian citizens and international groups to react immediately 
to electoral events.
    Opora will also work with other groups to post verified reports 
from ordinary citizens, using the ``crowdsourcing'' techniques that 
played an important role in recent Russian elections. In all of these 
efforts, the organization will also cooperate with the OSCE, and other 
nonpartisan domestic and international election monitoring groups.
    In addition to Opora, NDI hopes to support a monitoring effort by 
the European Network of Election Monitoring Organizations (ENEMO), a 
network of the leading nonpartisan monitoring groups from the former 
Soviet Union and Central and Eastern Europe. Its members, who have 
observed previous Ukrainian polls, are well versed in the country's 
electoral process.
    Opora, ENEMO and other monitors can give Ukrainians the crucial 
information they need to demand from their government clean elections 
as part of a genuine, long-term commitment to democracy. We hope that 
all of those here who care about Ukraine will help to amplify the 
findings of these credible monitoring efforts.
    Again, thank you, Mr. Chairman and Members of the Commission for 
holding this hearing and for the opportunity to speak today. For those 
who are interested, I have put copies of Opora's reporting schedule on 
the table in the hearing room.

Katie Fox is deputy director of the Eurasia department at NDI. Prior to 
joining the Institute more than 15 years ago, Ms. Fox was legislative 
director for a large labor union. A lawyer by training, Ms. Fox also 
served as an aide to two U.S. senators and a congressman. In her 
current role, Ms. Fox oversees NDI election monitoring, civic 
organizing and political party development programs in the former 
Soviet Union, with a focus on Ukraine, Russia, Belarus and Moldova. She 
has monitored elections in Bosnia, Georgia, Kyrgyzstan, Russia and 
Ukraine, and served on an NDI pre-election delegation to Ukraine in 
2007. Ms. Fox was stationed in NDI's Ukraine office in 1995-1998, and 
again in 1999 and 2004.

Prepared Statement of Gavin Weise, Deputy Regional Director, Europe and 
      Asia, International Foundation for Electoral Systems (IFES)

    Good afternoon ladies and gentlemen, members and staff of the 
Helsinki Commission. My name is Gavin Weise, I am the Deputy Director 
for Europe & Asia at the International Foundation for Electoral 
Systems, also known as IFES.
    IFES is a global leader in democracy promotion. We advance good 
governance and democratic rights by providing technical assistance to 
election officials, empowering the under-represented to participate in 
the political process and applying field-based research. Since 1987, 
IFES has worked in 135 countries, from developing to mature 
democracies.
    IFES has been active in Ukraine over the past two decades. IFES has 
provided support to nascent electoral institutions following Ukraine's 
independence; offered legislative assistance to fundamental laws; 
gauged citizens' sentiment and attitudes through annual public opinion 
research; and worked with a diverse range of civil society groups and 
experts to improve the quality and transparency of elections in the 
country. Currently we are actively promoting debate and analyses of 
electoral laws and other election issues among civil society experts; 
building the capacity of civic organizations to play a meaningful role 
in electoral and political processes and reform; supporting the Central 
Election Commission in its efforts to prepare for the 2012 elections; 
and will embark on longer-term institutional reforms.
    Before moving to my remarks, I want to first pause and sincerely 
thank the Helsinki Commission for inviting IFES to speak today, but 
more so for simply holding this event. Over the past two years, really 
since Ukraine's last presidential election in 2010, organizations such 
as IFES, and those of my colleagues here today, have followed events 
closely in the country with an eye toward this October's parliamentary 
elections. While Ukraine had a record of relatively competitive, 
considerably free and fair, and competently run elections for several 
years up through the 2010 presidential election, the local elections in 
the fall of that year gave us all cause for serious concern. The 
conduct of those elections, subsequent deterioration of rights and 
freedoms as documented by a number of organizations, the much-
publicized and seemingly selective political persecution of former 
government and current opposition figures, and recent developments with 
regards to the upcoming October election, have only heightened those 
concerns.
    Since I am joined by my colleagues of the two political party 
institutes, I will focus my remarks on IFES' core competencies, namely 
the legal framework and administration of elections. In doing so, I 
will touch upon a number of persisting or new weaknesses in the 
electoral legislation, draw your attention to some recent developments 
in preparation for October's elections, and finally and perhaps most 
importantly, highlight what additional issues may surface in the coming 
months based on IFES' experience, observations and work in the country.
    First of all, in regards to the current electoral legislation and 
the context under which it has come about, I would begin with the 2010 
local elections, which were widely regarded as the most problematic 
elections in the recent history of Ukraine. For an account of the 2010 
local elections and some of the issues encountered, you may refer to 
the U.S. Embassy in Ukraine's own statement of November 3, 2010. This 
preliminary statement cited concerns over insufficient training of 
election officials, ballot lottery, commission membership and 
complicated registration procedures, among others. It also stressed 
weaknesses in the recently passed local election law which changed the 
rules of the game late in the process and, in the opinion of most 
experts, to the detriment of the opposition parties and several 
prominent independent candidates. In that statement the embassy also 
indicated a willingness to provide assistance to future electoral 
reforms in Ukraine.
    On the heels of these elections, President Yanukovich announced his 
intent to embark on comprehensive electoral reform. Reform is of course 
a natural, ongoing process when a government, legislature or interest 
group seeks to improve and amend an institution or practice. Our own 
country shows no shortage of controversial topics that many would like 
to change in one way or another: campaign finance, redistricting and 
the electoral college, just to name a few. And while this commitment to 
legal reform was welcome in Ukraine, many stakeholders were surprised, 
and indeed dismayed, by the government's choice to begin with the 
parliamentary election law, a law that was regarded by many as being 
the least flawed of Ukraine's four primary election laws.
    A reluctance of many stakeholders within the opposition, civil 
society and international organizations to participate in the 
government's working group on election reform was increased by the fact 
that the government made many key decisions, including a change in the 
electoral system, even before the working group's first meeting. Out of 
this process a new draft parliamentary election law was put forward. 
IFES, together with assessments of the Council of Europe's Venice 
Commission and OSCE/ODIHR, has drawn attention to both positive and 
negative provisions in the law through its formal assessment of the 
law, and subsequent analysis. This analysis is available on our website 
and copies are also available here today. Of note, the final version of 
the law prepared by the parliament's temporary special committee was 
not broadly discussed with experts and adopted in the first and final 
reading during one day with a number of changes from the drafts 
analyzed by international organizations. IFES later prepared its 
comments on the final law after its adoption which it circulated widely 
among stakeholders and the diplomatic community.
    And it is of course this law which will regulate these elections in 
October.
    Now, I would like to make a general comment regarding the electoral 
system, itself. Since the beginning of the reform process, the 
government of Ukraine let it be known that the electoral system would 
be a parallel electoral system, whereby half the deputies would be 
elected through proportional representation according to a nationwide 
vote, and half would be elected in winner-take-all electoral 
constituencies (not unlike our elections for the House of 
Representatives).
    Inherently there is nothing wrong or right in such a system. 
However, I would like to draw your attention to the last time such a 
system was in place, exactly 10 years ago, during Ukraine's 2002 
parliamentary elections. Those elections were held at a time of a 
government waning in popularity; yet eventually produced somewhat 
surprising results to the benefit of the pro-government political 
force, to the point of it successfully retaining significant control of 
the legislature. More specifically, in 2002, Nasha Ukraina received 
23.57 percent of the popular vote in the nationwide constituency, and 
won 25 percent of the seats in the legislature, while pro-governmental 
pro-Kuchma ``Zayedu'' received 11.77 percent of the vote in the 
nationwide constituency, yet won 22.4 percent of the seats. How did 
this happen? The pro-Kuchma ``Zayedu'' bloc did extraordinarily well in 
single-member districts. Academics have since shown how in districts 
where the lion's share of the popular vote was clearly for one 
political party, the single member candidate vote in the same territory 
was rather oddly, not. A commonly held assertion among experts and 
academics was that in some cases use and control of administrative 
resource in certain territorial regions helped ensure a victory for 
pro-governmental candidates where the pro-governmental party did not 
enjoy a plurality of support.
    What is important to note, is that today in Ukraine, we have a 
similar scenario unfolding: a parallel electoral system is now firmly 
in place. A number of polls, including IFES' own from two weeks ago, 
shows the leading party in Ukraine, the governing Party of Regions, is 
in decline with support from only about 20 percent of the electorate. 
Meanwhile, the major oppositional parties cumulative support totals are 
polling now higher than the Party of Regions. So in a sense, we have a 
similar ``mix'' heading into the 2012 polls as we had in 2002; a 
governing force waning in popular support, about to compete in an 
election where half of the seats will be determined in single-member 
districts. In addition, the government holds considerable power at the 
local territorial level, clearly helped by the outcomes of those 
controversial local elections two years ago. Of course, we are not in 
2002 but 2012 and can conclude nothing at this time. However, the 
parallel is striking and must not be dismissed.
    A more technical issue we are now confronted with concerns the 
boundaries of those new single member-electoral districts. Just how 
many districts each administrative region of Ukraine would have was 
determined on April 28, 2012, and the borders of the districts were 
released made widely public on May 5. It is difficult to assess the 
Central Election Commission's performance in creating the boundaries 
for these constituencies because the law included only three sub-
articles to regulate this process. Efforts to develop a supplementary 
law on territorial organization of elections seem to have evaporated. 
Although there had been an earlier legislative intent, and indeed its 
creation was referenced in the early draft of the law, it simply did 
not happen. On a positive note, the Central Election Commission seems 
to have adhered to the 12 percent limit on the variation of voting 
population as prescribed by law, meaning the districts are to be 
relatively equal in population and thus the votes of citizens 
relatively equal. The Central Election Commission has allocated these 
districts to Ukraine's regions proportionally to the number of voters 
registered there. We understand that attempts were recently made to 
challenge the new boundaries through the court system, but that the 
cases were dismissed on the ground that the plaintiff's allegations, 
even if proven to be true, would not amount to a contravention of the 
law. In other words, it is proving difficult to challenge the legality 
of an act, when said act has little in the way to regulate it.
    As IFES cautioned in several of its reports, leaving the law vague 
and devoid of several basic international norms of districting has 
yielded little in the way of predictability for contestants or guidance 
for election commissioners, potentially leaving the commission open to 
criticism as a consequence. Here we should also point out that between 
the initial draft of the new law and the final version, one of the only 
provisions in the draft law related to districts--that districts must 
be contiguous--was inexplicably removed. As the districts have now been 
unveiled, we not surprised to see that there are districts which are 
noncontiguous. Unless the desire is to keep, in the same election 
district, a community of interest, such as an ethnic minority, or an 
established territorial unit (e.g. city, township, etc.) together, 
that, too, happens to be non-contiguous, by international standards 
there is no justifiable reason for doing this. In addition, there were 
no public or expert consultations, or certainly no expert input known 
to the public. How the districts were drawn in terms of political 
intentions, if they were indeed drawn for these reasons, will require 
some degree of political insight. A number of local groups have begun 
this analysis. Indeed, there is no doubt this expertise exists in 
Ukraine, and such information will certainly come to light. IFES, 
together with civil society partners, is itself working on a 
comprehensive technical analysis of the new districts which it hopes to 
release in the next week.
    Another set of issues to watch relates to the formation of district 
and polling station election commissions, which are essentially the 
chief electoral bodies for their respective areas. This will take place 
by August 24, and September 26, respectively. Election commissioners in 
Ukraine, at each level of election administration, are chosen purely on 
a partisan basis. In other words: all commissioners are nominated by a 
political entity. Because of the number of registered parties in 
Ukraine, and the numbers expected to compete for these elections, 
places on these commissions will be at a premium.
    Political factions already in the current parliament are guaranteed 
one place on each commission. With regards to the composition of the 
remainder of the commissions, there are a number of concerns. Instead 
of drawing lots from the entities competing in a district for the 
remainder of seats on the commission, on April 19 the Central Election 
Commission adopted a procedure whereby a single lottery will determine 
the ranking of political parties, which will then be used to fill each 
of the 225 district commissions around the country. This practice is 
contrary to an earlier IFES recommendation, as we believed separate 
lotteries for each district race should have been held. Each contestant 
to each electoral contest should have equal chance to gain the open 
positions on the presiding electoral commission. Should a party 
unfortunately draw near the bottom of the list in the lottery, they may 
lose any chance of getting even one of the 225 district commissions 
anywhere in the country. Drawing near the top gives them a high 
probability of membership or increased membership in every commission.
    Also, the timeframe for submission of the candidates for membership 
in the commissions is very tight--three days. If there are any mistakes 
in the submission, the nominating party or candidate is informed and 
must file a corrected submission the very next day or an application is 
rejected. However, the manner in which parties and candidates are 
informed of such decisions is not clearly defined by the law. If a 
political entity misses the slim deadline because they did not learn 
until later that there was an issue with their submission, this is 
potentially an unfair practice. Should it be systemic, it could result 
in significant underrepresentation of certain parties and candidates on 
the commissions.
    In terms of electoral administration, I should start by saying the 
Central Election Commission of Ukraine has an unenviable task. Training 
up to half a million election commissioners in a matter of a few weeks 
would be a difficult charge for any country. While organizations like 
IFES are willing partners of the election commission and will 
contribute some technical advice in planning, design and execution of 
training programs, overall, the burden of responsibility falls on the 
commission, itself.. The Central Election Commission will also face a 
significant challenge in educating voters on changed voting procedures. 
Again, IFES and other members of the international community can be of 
assistance here, but ultimate responsibility will rest with the 
election commission.
    Another challenge is that the commission will be overburdened with 
tasks in the upcoming months--it has to register candidates in each of 
the 225 single-member districts and the national party lists for the 
national district, accredit thousands of local and international 
nonpartisan observers, and thousands more candidates, party proxies and 
observers. Recently the election commission responded to this challenge 
through draft amendments to the parliamentary law, seeking to transfer 
some of its obligations to the district election commissions. However, 
experts do not believe this will prove successful. Understandably, 
there is resistance to further amending the legal framework so soon 
before an election.
    Beyond mere logistical challenges, we must remember that in Ukraine 
election commissions are de facto not independent from political 
influence as they are formed by the political entities whose interests 
they represent on the commission. Such a concern has been raised by 
international organizations that observed previous elections, such as 
the OSCE/ODIHR. This issue is of crucial importance as commissions in 
Ukraine have a legal function to adjudicate certain types of election 
challenges and disputes; essentially deciding for or against a 
political entity's interests is arguably better served with a certain 
degree of neutrality.
    Finally, I would point to a few additional issues to be cognizant 
of in the upcoming campaign and election. First, is the possibility 
that voters will be able to use the option in Ukraine of voting in 
their current temporary location to strategically change their polling 
place. This was a potential problem that IFES highlighted in its 
analysis of the draft law and should be closely monitored. In this 
regard it is worth noting that the system of voting in place, of 
temporary stay, bears a similarity to the absentee ballot system that 
was a major source of fraud during the 2004 Presidential elections.
    Second, concerns the commonly recognized phenomenon that all major 
political entities receive financial and other support from Ukraine's 
wealthiest benefactors--a factor in perpetuating the corruption that is 
one of the hallmarks of political life in Ukraine. However, the legal 
framework does little to regulate or bring transparency to such 
relationships. The new parliamentary election law requires only the 
most basic level of disclosure and leaves ample room for campaign costs 
to be hidden as third party expenditures or services in-kind. 
Furthermore, discrepancies between the election law and the law on 
political parties make it easy for candidates to conceal both the 
sources of their funding and the full extent of their spending by 
funneling it through political parties.
    Third, Election Day, itself, may well be complicated by unwieldy 
procedures that ought to be clarified by the Central Election 
Commission in advance of the election; and of course, the ever present 
possibilities of abuse of state resources, vote buying schemes and 
other illegal practices that can thrive with impunity under a weak 
system of law enforcement.
    Let me conclude by stating what the international community, 
including the United States, could do to support consolidation of 
democracy in Ukraine through a transparent, competitive and credible 
election this October.
    First, do not take your eye off ball now. It is understandable that 
organizations such as IFES, NDI, IRI and others who are deeply invested 
in electoral and political reform perhaps put greater priority on these 
developments in countries like Ukraine, and for a longer period of 
time. But now we are less than six months from Election Day. Over the 
next few months important developments will take place that will surely 
tell us just how transparent, credible and evenly contested these 
elections might be. Today's testimony has given you only highlights of 
some concerns; many others will be seen in the upcoming weeks and 
months, and I urge you all to stay focused on these concerns.
    To this end, it is of course vital for the U.S. and the larger 
international community to support nonpartisan observation efforts. We 
must pay close attention to and respond to electoral administration 
needs and help non-partisan human rights organizations, NGOs and media 
outlets have meaningful access to needed resources--especially through 
statements from entities such as your own, that continue to show that 
the U.S. is supportive of a democratic, free and fair election in 
Ukraine.
    Second, I urge you to not take your eye off the ball later. Ukraine 
fatigue in the West has correlated positively with the government's 
recidivism with respect to human rights, obvious aggressions towards 
political rivals and efforts to solidify the hold on power. For our 
part, IFES has and will continue to advocate for improved democratic 
electoral legislation and practices, and compliance with international 
standards and best practices, but with an understanding of nuances and 
particularities of the country. We hope that the U.S. will continue to 
value and advocate for the continued role of international 
organizations like IFES, the Venice Commission and others to their 
Ukrainian counterparts.
    Despite issues or concerns raised today, I would say that we 
certainly do not know what the outcome of these elections will be. But 
however the conduct--and whatever the outcome--it will be necessary to 
continue to engage Ukraine. Performance in the elections will determine 
in large part just how that engagement may take shape.
    Thank you for the opportunity to testify today and I am happy to 
answer any questions you may have.

Gavin Weise currently serves as Deputy Director for Europe and Asia, 
managing all Europe and Former Soviet Union programs. For the past 
decade, Weise has worked on Ukrainian issues at a number of 
international development organizations, implementing programs in 
democracy, rule of law and community development. His election 
experience includes support to election management bodies, civic and 
voter education, and training and advisory assistance to NGOs, courts, 
election commissions and political representatives. Weise co-authored 
IFES' review of Ukraine's draft Parliamentary Election Law in September 
of last year.

                                 <all>


                                     

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
